App. 1
In the
United States Court of Appeals
For the Seventh Circuit
-----------------------------------------------------------------------

No. 17-2998
KEVIN W. CULP, et al.,
Plaintiffs-Appellants,
v.
KWAME RAOUL, in his official capacity as Attorney General of the State of Illinois, et al.,
Defendants-Appellees.
-----------------------------------------------------------------------

Appeal from the United States District Court for the
Central District of Illinois.
No. 3:14-cv-3320 – Sue E. Myerscough, Judge.
-----------------------------------------------------------------------

ARGUED SEPTEMBER 20, 2018 – DECIDED APRIL 12, 2019
-----------------------------------------------------------------------

Before MANION, HAMILTON, and SCUDDER, Circuit
Judges.
SCUDDER, Circuit Judge. Before us is a challenge
to the scheme Illinois has enacted to license the concealed carry of firearms. The plaintiffs are out-of-state
residents who contend that Illinois law discriminates
against them in a way that forecloses their receiving a
license in violation of the Second Amendment and
the Privileges and Immunities Clause of the U.S.

App. 2
Constitution. Two years ago we considered and rejected the same challenge from the same parties in an
appeal from the denial of their request for a preliminary injunction. The case returns on the same evidentiary record following entry of summary judgment for
the State.
Illinois has regulated the public carrying of firearms by enacting the Firearm Concealed Carry Act
and seeking to ensure that licenses issue only to individuals – residents and nonresidents alike – without
substantial criminal and mental health histories, with
the State then undertaking regular and rigorous monitoring to verify ongoing compliance. Illinois monitors
the compliance of in-state license holders by accessing
the robust, real-time information available about its
residents. But monitoring compliance of out-of-state
residents is limited in material ways by Illinois’s inability to obtain complete and timely information about
nonresidents – for example, about a recent arrest for
domestic violence or a voluntary commitment for inpatient mental health treatment. Illinois cannot compel
this information from other states, nor at this time do
national databases otherwise contain the information.
The State has sought to overcome this information deficit not by holding out-of-state residents to
different standards than residents for obtaining a concealed-carry license, but by issuing licenses only to
nonresidents living in states with licensing standards
substantially similar to those of Illinois. In this way,
Illinois’s “substantially similar” requirement functions
as a regulatory proxy, as the State’s indirect means of

App. 3
obtaining adequate assurances that individuals licensed to carry a firearm in public remain fit and qualified to do so.
We conclude that Illinois’s substantial-similarity
requirement – the centerpiece of its approach to nonresident concealed-carry licensing – respects the Second
Amendment without offending the anti-discrimination
principle at the heart of Article IV’s Privileges and Immunities Clause.
I
A
The path to (and limitations on) the concealed carrying of firearms in Illinois owes much to the Supreme
Court’s decision in District of Columbia v. Heller, 554
U.S. 570 (2008). There the Court held that the Second
Amendment confers “the right of law-abiding, responsible citizens to use arms in the defense of hearth and
home.” Id. at 635. Concluding that “the inherent right
of self-defense has been central to the Second Amendment right,” the Court invalidated a District of Columbia law banning handgun possession in the home,
“where the need for defense of self, family, and property
is most acute.” Id. at 628.
In so holding, the Supreme Court underscored
that, “[l]ike most rights, the right secured by the Second Amendment is not unlimited,” emphasizing that
“the right was not a right to keep and carry any
weapon whatsoever in any manner whatsoever and for

App. 4
whatever purpose.” Id. at 626. The Court sounded the
extra caution that “nothing in [its] opinion should be
taken to cast doubt on longstanding prohibitions on
the possession of firearms by felons and the mentally
ill, or laws forbidding the carrying of firearms in sensitive places such as schools and government buildings,
or laws imposing conditions and qualifications on the
commercial sale of arms” – all “presumptively lawful
measures.” Id. at 626–27 & n.26.
Two years later, the Court decided McDonald v.
City of Chicago and held that “the Second Amendment
right is fully applicable to the States.” 561 U.S. 742, 750
(2010). Echoing what it underscored in Heller, the
Court “repeat[ed] th[e] assurances” that longstanding
“prohibitions on the possession of firearms by felons
and the mentally ill” remained unquestioned. Id. (quoting Heller, 554 U.S. at 626).
In the wake of Heller and McDonald, we held that
the Second Amendment right to “bear arms” extends
beyond the home. See Moore v. Madigan, 702 F.3d 933,
936 (7th Cir. 2012), petition for rehearing en banc denied, 708 F.3d 901 (7th Cir. 2013). This conclusion resulted in our invalidating an Illinois law that imposed
a near-categorical prohibition on the carrying of guns
in public. See id. at 934. This “sweeping ban,” we reasoned, could not be upheld by the State’s generalized
reliance on “public safety,” as Illinois had ample room
to “limit the right to carry a gun to responsible persons
rather than to ban public carriage altogether” – consistent with Heller’s recognition of the propriety of

App. 5
restricting gun possession by children, felons, the mentally ill, and unlawful aliens. Id. at 940, 942.
We ended our opinion in Moore with an invitation
to the “Illinois legislature to craft a new gun law that
will impose reasonable limitations” – in a manner “consistent with the public safety and the Second Amendment” – “on the carrying of guns in public” within the
State. Id. at 942. Illinois responded by enacting the
Firearm Concealed Carry Act, 430 ILCS 66/1 to 66/999,
authorizing the issuance of concealed-carry licenses to
individuals who meet prescribed eligibility requirements. This new statute set the stage for this litigation.
B
Obtaining a license under the Illinois Concealed
Carry Act requires an applicant to show, among other
things, that he is not a clear and present danger to
himself or a threat to public safety and, within the past
five years, has not been a patient in a mental hospital,
convicted of a violent misdemeanor or two or more violations of driving under the influence of drugs or alcohol, or participated in a residential or court-ordered
drug or alcohol treatment program. See 430 ILCS
66/10(a)(4), 66/25(3), 66/25(5); 430 ILCS 65/4, 65/8.
These standards are identical for residents and
nonresidents alike, and no provision of the Illinois statute imposes any additional requirement on nonresidents. Furthermore, no aspect of this case entails a
Second Amendment (or any other) challenge to any

App. 6
substantive-eligibility requirements in the Illinois
statute. To the contrary, this case is only about how the
substantial-similarity requirement applies to out-ofstate residents. Resolving the question requires an examination of the statutory scheme, most especially the
State’s initial evaluation of applicants and its ongoing
monitoring of a licensee’s continued eligibility.
The issuance of a license requires the State Police
to conduct an extensive background check of each applicant. See 430 ILCS 66/35. This check includes a
search of multiple national databases, including the
FBI’s National Instant Criminal Background Check
System and, for Illinois residents, of “all available state
and local criminal history record information files,”
records pertaining to domestic violence restraining orders, and mental health files of the Illinois Department
of Human Services. Id.
To enable the prompt identification of any disqualifying circumstances that may arise during the fiveyear licensing period, the Illinois statute requires
ongoing monitoring. See 430 ILCS 66/70; 430 ILCS
65/8.1. The monitoring is substantial, with the State
Police Firearms Services Bureau conducting a daily
check of all resident licensees against the Illinois
Criminal History Record Inquiry and Department of
Human Services’s mental health system for any development that might disqualify a licensee from holding
a concealed-carry license. To ensure that certain intervening and disqualifying events are reported, Illinois
obligates the clerks of its circuit courts as well as state
law enforcement agencies to notify the State Police of

App. 7
certain criminal arrests, charges, and disposition information. See 430 ILCS 65/8.1(a); 20 ILCS 2630/2.1 to
2630/2.2. Illinois law also mandates that physicians,
law enforcement officials, and school administrators
report persons suspected of posing a clear and present
danger to themselves or others within 24 hours of that
determination. See 430 ILCS 65/8.1(d)(1)–(2).
This monitoring regime positions Illinois to revoke
the license of an individual who poses a danger of misusing firearms. The State Police learning, for example,
that a license holder had been arrested for domestic
violence or committed involuntarily to inpatient mental health treatment results in a revocation of the license. See 430 ILCS 66/70(a); 430 ILCS 66/25(2)
(incorporating 430 ILCS 65/4(2)(iv)), 66/25(4).
The upshot of all of this is that eligibility for a
concealed-carry license in Illinois turns on the continuing and verifiable absence of a substantial criminal
record and mental health history for all applicants, regardless of residency. See 430 ILCS 66/25(2) (incorporating 430 ILCS 65/4(2)(ii)–(xvii)), 66/25(3). While this
observation is simple, implementing it is not. The
State’s ability to determine eligibility depends on access to information. And it is on this point that Illinois
faces a substantial practical barrier – an information
shortfall – when it comes to the mental health and
criminal histories of out-of-state residents wishing to
obtain a license.
Illinois does not have access to other states’ criminal history databases or mental health repositories.

App. 8
Nor are other states required to provide this information to Illinois or, more generally, to include the information in a national database to which the Illinois
State Police have access. This is today’s information reality, and it is uncontested. At no point in this litigation
– not in the district court, during the first appeal, or
now in this second appeal – have the plaintiffs presented evidence refuting Illinois’s showing of this information deficit.
Despite this information gap, the Illinois legislature still authorized concealed carry by out-of-state
residents in circumstances where the State can obtain
enough confidence about an applicant’s background
and continued fitness to carry a firearm in public. The
confidence comes, the legislature determined, from a
regulatory proxy – an indirect indicator that provides
adequate assurance that a nonresident is fit and qualified to engage in concealed carry in Illinois. The proxy
took the form of the legislature authorizing the issuance of concealed-carry licenses to residents of states
“with laws related to firearm ownership, possession,
and carrying, that are substantially similar to the requirements to obtain” an Illinois concealed-carry license. 430 ILCS 66/40(b).
The law of another state is deemed “substantially
similar” if the state, like Illinois, (1) regulates who may
carry firearms in public; (2) prohibits those with involuntary mental health admissions, and those with voluntary admissions within the past five years, from
carrying firearms in public; (3) reports denied persons
to the FBI’s National Instant Criminal Background

App. 9
System; and (4) participates in reporting persons authorized to carry firearms in public through the National Law Enforcement Telecommunications System.
See 20 Ill. Admin. Code § 1231.10.
The rationale is plain: because states that meet
these criteria monitor the same criminal and mental
health qualifications Illinois requires under its own
law and report this information to national databases,
Illinois can access the information to assess whether
nonresidents from these states are qualified to carry a
concealed gun in Illinois. And, even more critically, the
criminal history and mental health reporting practices
of these substantially similar states enable Illinois to
learn about any disqualifying event that warrants revoking an individual’s license.
The State Police implement this monitoring of
nonresident licensees by running a check of national
databases every 90-days. By doing so, Illinois positions
itself to learn of new arrests, convictions, and mental
health commitments and thus ongoing fitness for concealed carry within the State.
To determine which states have substantially similar regulatory schemes, Illinois undertakes a survey
process. The State Police send a survey to all other
states seeking information regarding their regulation
of firearm possession and related criminal history and
mental health reporting. Since 2013, Illinois has conducted two surveys and most recently, in 2015, determined that four states meet the criteria: Arkansas,
Mississippi, Texas, and Virginia. Residents of these

App. 10
states, therefore, may apply for an Illinois concealedcarry license.
Illinois has approached the survey process with a
measure of diligence. The surveys sought detailed information from other states, and Illinois officials took
steps to follow up with states that failed to respond or
provided incomplete information. Illinois also changed
prior substantial-similarity determinations in response to receiving new information.
Individuals living outside a substantially similar
state are not without firearm privileges in Illinois. To
the contrary, the Concealed Carry Act affords all outof-state residents holding a concealed-carry permit in
their home state the right to travel with a firearm in
their vehicle while driving in Illinois. See 430 ILCS
66/40(e). And the Illinois Firearm Owners Identification Card Act, 430 ILCS 65/0.01 to 65/16-3, allows
out-of-state residents who are authorized to possess a
firearm in their home state to do the same in Illinois
while on their own premises or in the home of an Illinois
resident with permission, see 430 ILCS 65/2(b)(10),
while hunting, see 430 ILCS 65/2(b)(5), and while engaging in target practice at a firing or shooting range,
see 430 ILCS 65/2(b)(7). Nonresidents may also possess a firearm that is unloaded and enclosed in a case.
See 430 ILCS 65/2(b)(9).
C
In 2014 nine individuals who live outside of Illinois, but not in one of the four substantially similar

App. 11
states, brought suit alleging that Illinois’s regulation
of out-of-state concealed-carry licensing violates the
Second Amendment, the Privileges and Immunities
Clause of Article IV, and the Equal Protection Clause
and the Due Process Clause of the Fourteenth Amendment. The individual plaintiffs are responsible, lawabiding individuals who travel to Illinois for business
or family reasons and, in the interest of personal
safety, wish to obtain a concealed-carry license.
Beyond broadly asking the district court to declare
the statute’s substantial-similarity requirement unconstitutional, the plaintiffs sought a preliminary injunction. Illinois opposed the motion by submitting an
affidavit from the Chief of the Firearms Services Bureau, Jessica Trame, outlining the State’s interest in
not only carefully vetting applicants for concealedcarry licenses, but also monitoring the ongoing fitness
and qualifications of all licensees. Chief Trame relayed
substantial detail regarding the challenges Illinois
faces obtaining information about out-of-state applicants’ criminal and mental health histories at the application stage, due largely to the absence of certain
information in national databases and the State’s lack
of resources to perform a complete record search of applicants from other states.
Chief Trame further explained that Illinois faces
even greater difficulties when it comes to obtaining updated information pertinent to monitoring the ongoing
qualifications of nonresidents. Illinois, for example,
does not have access to other states’ mental health information and, as a result, relies on federal databases

App. 12
to obtain as much information as possible. On this
point, Chief Trame was specific: “Out-of-state mental
health facilities are not required by their states to report admissions or persons presenting a clear and present danger to [the Illinois Department of Human
Services] or to [the Illinois State Police], and do not do
so unless [the Illinois State Police] makes a request for
that information.” “Many out-of-state mental health
entities,” she added, “do not provide this information
even after an [Illinois State Police] request.”
After considering the State’s showing of these information deficits – all of which went uncontested by
the plaintiffs – the district court denied the request for
a preliminary injunction. The district judge emphasized that the State has an important and strong interest in protecting the public by ensuring that
unqualified individuals are not licensed to carry loaded
firearms on Illinois streets. Culp v. Madigan, No. 14CV-3320, 2015 WL 13037427, at *16 (C.D. Ill. Dec. 7,
2015).
We affirmed. Culp v. Madigan, 840 F.3d 400, 403
(7th Cir. 2016). Pointing to our decision in Moore, we
reiterated that Illinois “must permit law-abiding and
mentally healthy persons to carry loaded weapons in
public.” Id. at 401. We then concluded that because Illinois lacks access to information about the qualifications of out-of-state residents – in particular, whether
nonresidents are law-abiding and mentally healthy –
the State’s substantial-similarity requirement was
consistent with Moore’s mandate and did not offend
the Second Amendment. See id. at 402.

App. 13
Our prior opinion, to be sure, recognized that the
Illinois statute undeniably precludes some law-abiding
nonresidents – those living outside a state with substantially similar laws – from receiving a concealedcarry license. See id. Against the weight of the State’s
public-safety interests, however, we concluded that the
Second Amendment permitted Illinois’s regulatory approach, at least on the record before the district court
at the preliminary injunction stage. See id. at 402–03.
On remand the parties cross-moved for summary
judgment on a nearly identical factual record. (The
only change was that Illinois submitted a revised affidavit from Chief Trame to list those states presently
deemed substantially similar.) Adhering closely to our
decision in Culp I, the district court entered summary
judgment for the State, emphasizing that Illinois “has
a substantial interest in restricting concealed carry licenses to those persons whose qualifications can be
verified and monitored” and “[t]he restriction barring
nonresidents from states without substantially similar
laws from applying for an Illinois concealed carry license is substantially related to that strong public interest.” Culp v. Madigan, 270 F. Supp. 3d 1038, 1058
(C.D. Ill. 2017). The court also denied the plaintiffs’
other constitutional claims. See id. at 1058–59.
II
This second appeal mirrors the first in all respects.
The facts have not changed, and the legal issue is the
exact same. The plaintiffs nonetheless urge us to

App. 14
overturn our decision in Culp I. While we decline to do
so, it is appropriate to expand upon our reasoning.
A
The plaintiffs remain clear that they are not challenging any criminal history or mental health limitations Illinois has imposed on concealed-carry. Indeed,
at least for purposes of this case, the plaintiffs advance
no claim that any licensing-eligibility standard falls
outside Heller’s recognition of “longstanding prohibitions on the possession of firearms by felons and the
mentally ill” that the Supreme Court has identified as
“presumptively lawful.” 554 U.S. at 626–27 & n.26.
What the plaintiffs instead challenge is how the
Concealed Carry Act impacts out-of-state residents.
They argue that the Second Amendment confers a fundamental right to carry a firearm in public for selfdefense and that principles of strict scrutiny preclude
the State from limiting that right to the degree Illinois
has done here – to foreclose the law-abiding residents
of 45 states from acquiring a license.
This contention is overbroad, for it cannot be
squared with the Supreme Court’s emphasis in Heller
that the rights conferred by the Second Amendment
are not unlimited. See id. at 595. The right to bear
arms, as a historical matter, “was not a right keep and
carry any weapon whatsoever and for whatever purpose.” Id. at 626. And most to the point here, the Court
underscored the propriety of the “longstanding prohibitions on the possession of firearms by felons and the

App. 15
mentally ill,” while also observing that most courts
throughout the 19th century “held that prohibitions on
carrying concealed weapons were lawful under the
Second Amendment or state analogues.” Id.
The plaintiffs accept this historical reality or, at
the very least, fail to offer a competing historical account. And the absence of historical support for a
broad, unfettered right to carry a gun in public brings
with it a legal consequence: the Second Amendment allows Illinois, in the name of important and substantial
public-safety interests, to restrict the public carrying
of firearms by those most likely to misuse them. See
United States v. Skoien, 614 F.3d 638, 645 (7th Cir.
2010) (en banc). The State has done so here on two dimensions – criminal and mental health history – expressly recognized in Heller and unchallenged (either
generally or specifically) by the plaintiffs. Perhaps as
they must, the plaintiffs expressly admit that they “do
not take issue with [firearm] restrictions on individuals with certain criminal histories or a history of admittance to mental health facilities.”
Nor does the plaintiffs’ position improve if we turn
to our decision in Moore. While the plaintiffs are right
to observe that we held that an individual’s Second
Amendment right to possess a firearm for self-defense
extends outside the home, our opinion in Moore did not
end there. We went the added step of reiterating the
assurances from Heller and McDonald that the rights
conferred by the Second Amendment are not unlimited
and, even more specifically, that a state’s interest in
promoting public safety is strong enough to sustain

App. 16
prohibitions on the possession of firearms by felons
and the mentally ill. See Moore, 702 F.3d at 940 (“And
empirical evidence of a public safety concern can be
dispensed with altogether when the ban is limited to
obviously dangerous persons such as felons and the
mentally ill.”).
Moore, therefore, cannot bear the weight the plaintiffs place on it. We concluded that the individual right
to bear arms recognized in Heller and McDonald extended, at least to some degree, to the public carrying
of firearms. See id. But neither Moore nor the Supreme
Court’s decisions in Heller and McDonald preclude a
state from imposing criminal history and mental fitness limitations on gun possession. See Heller, 554 U.S.
at 626; McDonald, 561 U.S. at 786.
B
This brings us to the plaintiffs’ contention that the
State’s substantial-similarity requirement impermissibly discriminates against out-of-state residents by
denying them the right to carry a handgun in the same
manner available to residents. This is the essence of
the plaintiffs’ challenge to the Illinois Concealed Carry
Act. Put most simply, the plaintiffs frame this as a discrimination case.
It remains undisputed, however, that Illinois’s licensing standards are identical for all applicants – residents and nonresidents the same. What is more, the
plaintiffs do not challenge Illinois’s showing that the
differential licensing impact is the product of the

App. 17
information deficit the State faces with vetting and
monitoring out-of-state residents. For its part, moreover, Illinois has demonstrated that the substantialsimilarity requirement relates directly to the State’s
important interest in promoting public safety by ensuring the ongoing eligibility of who carries a firearm
in public. Intermediate scrutiny requires no more. See
Ezell v. City of Chicago, 651 F.3d 684, 708 (7th Cir.
2011) (explaining that the tailoring prong of intermediate scrutiny requires that any regulation of firearms
must be substantially related to an important government interest); see also Skoien, 614 F.3d at 642 (articulating the same standard).
Before us is a State with a weighty interest in preventing the public carrying of firearms by individuals
with mental illness and felony criminal records. Illinois established a licensing and monitoring scheme to
achieve this public-safety objective, yet the unrefuted
evidence shows that information deficits inhibit the
State’s ability to monitor the ongoing qualifications of
out-of-state residents outside of the substantially similar states. Forcing the State to issue concealed-carry
licenses to nonresidents despite this information
shortfall would thrust upon Illinois a race to the bottom. Licenses would have to issue along eligibility
standards incapable of being verified or, at the very
least, below those established by the State legislature
for its own residents. Once eligible would risk meaning
forever eligible. That outcome is hard to reconcile with
Heller’s acceptance of the “longstanding prohibitions
on the possession of firearms by felons and the

App. 18
mentally ill.” 554 U.S. at 626–27 & n.26. And the outcome has even less to say for itself where, as here, the
plaintiffs accept the substance of the criminal history
and mental health limitations Illinois has imposed on
concealed-carry licensing.
The plaintiffs insist that the Second Amendment
requires Illinois to let them apply for a concealed-carry
license. While the observation may be right, it only
goes so far. It may be possible for Illinois to take additional steps in vetting initial applications. The State
could modify its present practices by, for example, requiring a sworn declaration on a nonresident’s mental
health from a treating physician or shifting more of the
cost of obtaining out-of-state criminal history information to the nonresident applicant.
But focusing on the initial application responds to
only part of the State’s interest in enforcing the requirements to carry a concealed firearm in Illinois. The
State’s enforcement authority necessarily must bring
with it a practical way of monitoring the ongoing fitness of individuals licensed to carry a firearm on a
public street. See Berron v. Illinois Concealed Carry Licensing Review Board, 825 F.3d 843, 847 (7th Cir. 2016)
(“Illinois is entitled to check an applicant’s record of
convictions, and any concerns about his mental health,
close to the date the applicant proposes to go armed on
the streets.”). As we put the point in Culp I, “[t]he critical problem presented by the plaintiffs’ demand – for
which they offer no solution – is verification.” 840 F.3d
at 403.

App. 19
Monitoring depends on staying informed, on learning of developments that may affect public safety
within the State. Take, for instance, a nonresident licensee arrested for domestic battery or who suffers
from acute mental illness and, after much persuasion
from family and friends, agrees to inpatient treatment.
Either development renders the individual ineligible
to carry a firearm in Illinois. See 430 ILCS 66/70(a);
430 ILCS 66/25(2) (incorporating 430 ILCS 65/4(2)(iv)),
66/25(4). The State cannot revoke a license without
first learning of the development, however. And it is
this dual reality – the union of this information deficit
and public-safety considerations – that led the Illinois
legislature to condition nonresident concealed-carry licensing on an individual living in a state with substantially similar laws.
Yes, “the plaintiffs do make some apt criticisms of
Illinois law,” Culp I, 840 F.3d at 403; yes, the statutory
scheme operates to prevent many law-abiding nonresidents from publicly carrying a firearm within Illinois;
and yes, by focusing on another state’s regulatory
scheme, it allows nonresident licensing to turn on a
factor beyond any individual’s personal control.
While Illinois does not dispute these elements of
imperfection, the plaintiffs, for their part, do not dispute the State’s monitoring challenges. To the contrary,
the plaintiffs accept that Illinois cannot adequately
monitor their mental health or potential criminal behavior. And all the plaintiffs say in response is that it
is enough on the monitoring front for Illinois to ask license holders to self-report any disqualifying criminal

App. 20
history or mental health developments. The Second
Amendment does not mandate this approach: Illinois
is not forced to accept the public-safety risk of relying
on individuals to self-report a felony conviction, domestic violence arrest, or mental health crisis. Nor is the
State required to tailor its law so narrowly as to sacrifice its important monitoring interest.
In the end, the analysis resolves in Illinois’s favor
and sustains the State’s substantial-similarity requirement. Any other conclusion – compelling the
State to issue concealed-carry licenses without then
being able to monitor ongoing eligibility – would force
Illinois to accept an idiom: what the State does not
know cannot hurt it. The State’s interest in maintaining public safety is too substantial to mandate that result. On the record before us, then, and giving effect to
the permissible criminal history and mental health
limitations underscored in Heller, we hold that the
substantial-similarity requirement of the Illinois Concealed Carry Act respects the Second Amendment.
Our holding responds to the plaintiffs’ request for
a declaration that the Illinois statute’s substantialsimilarity requirement is unconstitutional root and
branch – as applied to themselves and all law-abiding
residents living in 45 states. We have declined the invitation owing in large measure to the expanse of the
information deficit that precludes the State from monitoring ongoing fitness. To restate the holding, though,
is to recognize a limitation: Illinois’s evidentiary showing went uncontested at every stage of this case. The
plaintiffs as a group never challenged the State’s

App. 21
showing of an information deficit, nor did any individual plaintiff seek to overcome it by showing such a substantial and regular presence in Illinois to enable the
monitoring essential to the State’s public-safety interest. So we leave for another day what the Second
Amendment may require in a circumstance where the
information deficit is no longer present.
III
The plaintiffs also argue that Illinois’s concealedcarry regulatory scheme offends the Privileges and Immunities Clause of Article IV. Here, too, we disagree.
The Supreme Court has clarified that states must
accord residents and nonresidents equal treatment
“[o]nly with respect to those ‘privileges’ and ‘immunities’ bearing on the vitality of the Nation as a single
entity.” Supreme Court of New Hampshire v. Piper, 470
U.S. 274, 279 (1985) (quoting Baldwin v. Fish and
Game Comm’n of Montana, 436 U.S. 371, 383 (1978)).
If a challenged regulation deprives nonresidents of a
protected privilege, the question becomes whether the
state has offered a substantial reason to justify the discriminatory impact and, relatedly, whether its regulatory approach bears a substantial relationship to its
objective. See Barnard v. Thorstenn, 489 U.S. 546, 552–
53 (1989). This inquiry recognizes that “the states
should have considerable leeway in analyzing local
evils and in prescribing appropriate cures,” for only unjustifiable discrimination violates the Privileges and
Immunities Clause. United Bldg. and Constr. Trades

App. 22
Council of Camden County and Vicinity v. Mayor and
Council of the City of Camden, 465 U.S. 208, 222–23
(1984) (quoting Toomer v. Witsell, 334 U.S. 385, 396
(1948)).
The Supreme Court also has recognized that “the
Privileges and Immunities Clause was intended to
create a national economic union.” Piper, 470 U.S. at
279–80. This principle aligns with the Court’s primary
precedents in this area, which have typically involved
economic rights. See, e.g., Hicklin v. Orbeck, 437 U.S.
518, 526 (1978) (invalidating Alaska’s requirement
that residents be hired over nonresidents for particular oil and gas jobs); Toomer, 334 U.S. at 396 (invalidating a statute that charged nonresident fishermen a fee
one hundred times greater than a similar fee charged
to resident fishermen); Ward v. Maryland, 79 U.S. 418,
432 (1870) (invalidating a statute that imposed licensing and fee requirements on nonresident merchants
that were not similarly imposed on resident merchants).
No plaintiffs here contend that carrying a concealed weapon is essential to their ability to work in
Illinois. While the Court has never held that the Privileges and Immunities Clause is limited to economic interests, we are equally unaware of a decision holding
that a privilege of citizenship includes a right to engage in the public carry of a firearm, or, even more specifically, the right to carry a concealed firearm in
another state. Under the law as it presently stands, it
seems difficult to conclude that such a right, if it exists,

App. 23
is essential to the ongoing vitality of the nation. See
Piper, 470 U.S. at 279.
But we stop short of taking a position on the fundamental right question. The plaintiffs’ claim fails for
another reason: the Privileges and Immunities Clause
does not compel Illinois to afford nonresidents firearm
privileges on terms more favorable than afforded to its
own citizens. Yet that is the precise import of the plaintiffs’ challenge to Illinois’s Concealed Carry Act. They
demand the right to carry a concealed firearm despite
the (uncontested) information barrier Illinois faces
when monitoring their continued fitness and eligibility.
The State does not face this monitoring barrier with
its own citizens, however.
Illinois’s adoption of a substantial-similarity requirement to bridge the information deficit places nonresidents on equal regulatory footing with Illinois
residents and does not offend the Privileges and Immunities Clause. To the extent the impact of this regulation works to disadvantage nonresidents, such an
effect is not the type of unjustifiable discrimination
prohibited by the Clause. See Bach v. Pataki, 408 F.3d
75, 91, 94 (2d Cir. 2005) (holding that a New York regulation restricting applications for handgun licenses to
nonresidents with a primary place of business in the
State did not violate the Privileges and Immunities
Clause because the “discrimination [was] sufficiently
justified by New York’s public safety interest in monitoring handgun licensees” and its inability to access
sufficient information about the qualifications of nonresidents), overruled on other grounds by McDonald v.

App. 24
Chicago, 561 U.S. 742, 791 (2010). Put another way, the
Privileges and Immunities Clause, no more than the
Second Amendment, does not force Illinois into a regulatory race to the bottom.
IV
What remains are the plaintiffs’ claims that the
substantial-similarity requirement violates the guarantees of equal protection and due process found in the
Fourteenth Amendment. The plaintiffs, however, have
not identified any precedent (from the Supreme Court
or otherwise) recognizing that either the Equal Protection or Due Process Clause confers a substantive right
to engage in the public carry of a firearm, or specifically, the concealed carry of a firearm in another state.
Nor have we.
Furthermore, repackaging a claim that is more appropriately brought under a different constitutional
provision – here the Second Amendment – as an equal
protection claim will not usurp the settled legal framework that has traditionally applied. See Bogart v. Vermilion County, Ill., 909 F.3d 210, 214–15 (7th Cir. 2018)
(endorsing the same reasoning in the context of parallel First Amendment and equal protection claims); see
also Muscarello v. Ogle County Bd. Of Comm’rs, 610
F.3d 416, 422–23 (7th Cir. 2010) (endorsing the same
reasoning in the context of parallel takings and equal
protection claims). Regardless, even if we were to consider this claim independent of the plaintiffs’ Second
Amendment claim, the relevant question under the

App. 25
Equal Protection Clause is whether the Illinois Concealed Carry Act impermissibly discriminates against
a suspect class or deprives out-of-state residents of a
fundamental right. The answer here is no for all the
reasons in our analysis of the plaintiffs’ Second
Amendment challenge to the Illinois statute.
We conclude with the plaintiffs’ due process claim.
There has been no Second Amendment or Privileges
and Immunities Clause violation, and therefore, without any authority for their proposition that the Due
Process Clause independently confers a right to carry
a concealed firearm in Illinois, the plaintiffs cannot
show that they have been deprived of a liberty interest
without due process. See Swarthout v. Cooke, 562 U.S.
216, 219 (2011).
*

*

*

What makes a case like this difficult is that it pits
the Second Amendment against equally important
principles of federalism. The Illinois Concealed Carry
Act survives the present challenge in large measure
because of the undisputed empirical showing that the
State today is without a reliable means of monitoring
or otherwise learning of intervening, material adverse
developments with the criminal history and mental
health of nonresidents. The Second Amendment allows
Illinois to account for this limitation in determining
the terms on which to award concealed-carry licenses
to out-of-state residents.
But time does not stand still. Nor can Illinois as
other states become willing to make more information

App. 26
available. The information deficit that today allows
and sustains Illinois’s substantial-similarity requirement may close and position the State to adjust its licensing scheme. In regulating the public carrying of
firearms, Illinois, then, must in good faith continue to
evaluate whether to amend its approach. In these
ways, our federal structure reacts and evolves to respect local interests and individual rights.
For these reasons, we AFFIRM.

MANION, Circuit Judge, dissenting. In District of
Columbia v. Heller, 554 U.S. 570, 635 (2010), the Supreme Court held our Constitution ensures “the right
of law-abiding, responsible citizens to use arms in defense of hearth and home.” Shortly thereafter, this
court logically extended the Supreme Court’s holding
to include “a right to carry a loaded gun outside the
home.” Moore v. Madigan, 702 F.3d 933, 936 (7th Cir.
2012).
Nevertheless, the court today upholds Illinois’s
scheme that categorically prohibits the citizens of 45
states from fully exercising this right when they find
themselves within Illinois’s borders. Because Illinois
has failed to adequately justify this significant curtailment of individual liberty, I dissent.1

1

Because I conclude the plaintiffs should succeed on their
Second Amendment claim, I do not address their claims brought
under other provisions of the Constitution.

App. 27
I.
In the wake of our decision in Moore, Illinois
passed the Firearm Concealed Carry Act (FCCA), allowing those whom Illinois licenses to carry concealed
firearms in public for self-defense. As the court notes,
Illinois allows nonresidents without an Illinois license
to bring firearms into the state in very limited circumstances. For instance, nonresidents with a concealedcarry license from their own state may “travel with a
firearm in their vehicle,” and anyone entitled to possess a firearm in their own state may “possess a firearm . . . on their own premises or in the home of an
Illinois resident with permission, while hunting, and
while engaging in target practice at a firing or shooting
range.” Maj. Op. at 9 (citations omitted). But licensed
concealed carry remains the only legal way to bear a
firearm in public in Illinois, see 720 ILCS 5/24-1.6(a)
(defining the crime of “Aggravated unlawful use of a
weapon” to include the open carry of a firearm), and
Illinois unconditionally denies that ability to the residents of 45 states.
It does so by only accepting applications for
concealed-carry licenses from nonresidents who reside
in states it determines have “laws related to firearm
ownership, possession, and carrying, that are substantially similar to the requirements to obtain a license
under [the FCCA].” 430 ILCS 66/40(b). The Illinois
Department of Police decides which states are “substantially similar.” See id.; ILL. ADMIN. CODE tit. 20
§ 1231.110(c). To determine which states qualified, the
Department sent surveys to the states in 2013. Based

App. 28
on the responses, the Department concluded Hawaii,
New Mexico, South Carolina, and Virginia were “substantially similar.” In 2015, the Department sent another round of surveys. Hawaii, New Mexico, and
South Carolina changed their answers, so the Department took them off the list. But the Department added
Arkansas, Mississippi, and Texas. That is the last survey of which we have evidence.2
Therefore, as it stands, only the residents of Arkansas, Mississippi, Texas, and Virginia may even apply for a nonresident concealed-carry license. This
means Illinois categorically denies the residents of the
remaining 45 states the ability to exercise the fundamental right to carry a firearm in public in Illinois
simply because of the “ineligible” state in which they
reside. Such a regime cannot withstand dutiful judicial
scrutiny.
II.
As I explained in my dissent the last time this case
was before this court, there is no doubt the FCCA must
face “exacting (although not quite strict) scrutiny.”
Culp v. Madigan, 840 F.3d 400, 407 (7th Cir. 2016)
(Manion, J., dissenting). Illinois must show “an extremely strong public-interest justification and a close
fit between the government’s means and its end.” Id.
at 404 (quoting Ezell v. City of Chicago, 651 F.3d 684,
2

At oral argument, counsel for Illinois said the State was
“constantly sending out surveys,” but there is no evidence of any
survey after 2015.

App. 29
708 (7th Cir. 2011)). I concluded Illinois did not do so
at the preliminary injunction stage, and nothing has
changed since then.
Illinois’s proffered goal for its law – to keep guns
out of the hands of felons and the mentally ill in public
– assumedly satisfies the “extremely strong public-interest justification” prong of the test.3 The question is
whether Illinois’s licensing scheme that prevents lawabiding, healthy citizens from even applying for a concealed license is sufficiently tailored to that goal. Certainly, if Illinois is going to have a licensing regime, it
has to have some method of ensuring the individuals it
licenses are eligible and remain so. However, Illinois
has utterly failed to show that banning the residents
of an overwhelming majority of the country from even
applying for a license is a “close fit” to its goal.
Most importantly, and as I pointed out before, the
system is grossly underinclusive and overinclusive. An
Illinois resident holding a license could cross the Mississippi River to Missouri, check himself into a mentalhealth clinic, and then return without Illinois ever
knowing. Or a person could live in one or more of the
3

However, as some recent cases indicate, see generally Kanter v. Barr, 919 F.3d 437 (7th Cir. 2019); Binderup v. Att’y Gen.
U.S., 836 F.3d 336 (3d Cir. 2016) (en banc), questions about whom
a state may dispossess of gun rights are likely to be an issue in
the future. Under some interpretations, Illinois’s regime, which
disqualifies based on a conviction for any felony, 430 ILCS 65/8(c),
might go too far, see generally Kanter, 919 F.3d at 469 (Barrett,
J., dissenting) (“Absent evidence that Kanter would pose a risk to
the public safety if he possessed a gun, the governments cannot
permanently deprive him of his right to keep and bear arms.”).

App. 30
45 dissimilar states for years and then move to a similar state, automatically becoming eligible to apply for
a license even though “Illinois (and, presumably, the
substantially similar state as well) [would be] unable
to obtain information about his possible criminal or
mental problems in those states.” Culp, 840 F.3d at 403
(majority opinion). But a colonel in the United States
Air Force licensed as a concealed-carry instructor in Illinois cannot apply for a concealed-carry license of his
own because he is a resident of Pennsylvania. Courts
should not allow such slipshod laws to proscribe the
exercise of enumerated rights. See id. at 408 (Manion,
J., dissenting) (citing Ark. Writers’ Project, Inc. v.
Ragland, 481 U.S. 221, 232 (1987)).
Illinois asks the court to ignore these problems because of presumed administrative difficulties. If it is
not allowed to restrict the application process to residents of certain states, it contends, it will have no way
of concluding the residents of dissimilar states are eligible for a license and continue to be so for the term of
the license. Illinois’s main objection to allowing applications from anyone is that if an applicant’s state does
not report certain information to national databases,
Illinois would have to obtain the information some
other way, and that would be too burdensome.
To start with, “the Constitution recognizes higher
values than speed and efficiency”; simply avoiding cost
and administrative burden does not justify denying
constitutional rights. Stanley v. Illinois, 405 U.S. 645,
656 (1972); see also Watson v. City of Memphis, 373 U.S.
526, 537 (1963) (“[I]t is obvious that vindication of

App. 31
conceded constitutional rights cannot be made dependent upon any theory that it is less expensive to deny
than to afford them.”); Culp, 840 F.3d at 407 (“[T]he
tailoring requirement prevents [the] government from
striking the wrong balance between efficiency and the
exercise of an enumerated constitutional right.”).
Furthermore, there is no evidence in the record
that Illinois could not pursue its goal in a more targeted way that would respect the fundamental right at
stake. Perhaps Illinois could pass the costs on to the
applicant – it already charges nonresidents twice as
much when they apply. See 430 ILCS 66/60 (imposing
$150 fee for residents and $300 fee for nonresidents).
Or Illinois could place the burden on applicants themselves to contact appropriate authorities and acquire
the information Illinois demands, and it could require
the information be transmitted in some form with sufficient indicia of authenticity.
Similar workarounds could be found for mentalhealth records, even though some states do not track
mental-health information. Illinois already requires
every applicant for a concealed-carry license to provide
Illinois with the ability to access the applicant’s private information. See 430 ILCS 66/30(b)(3) (listing
among the contents of an application “a waiver of the
applicant’s privacy and confidentiality rights and privileges under all federal and state laws, including those
limiting access to . . . psychiatric records or records relating to any institutionalization of the applicant”). So,
to the extent any mental-health records are kept by the
authorities, Illinois could access them (or, again, put

App. 32
the cost and time burden on the applicant to access
them and provide certified versions to Illinois). In the
case of voluntary mental-health admissions that are
particularly likely not to be tracked, Illinois could have
every applicant from a dissimilar state conform to the
certification procedure already found in Illinois law,
which allows those who have been voluntarily treated
in the past to obtain a certification of health from “a
physician, clinical psychologist, or qualified examiner.”
See 430 ILCS 65/8(u). Indeed, “such certification would
provide Illinois with more information than it can obtain about its own residents’ out-of-state sojourns,
which they admittedly cannot track.” Culp, 840 F.3d at
409.
To its credit, the court today acknowledges there
are reasonable alternatives to an outright ban when it
comes to the initial application. See Maj. Op. at 16.
Nonetheless, the court finds the issue with continued
monitoring insurmountable. It says there is an “information deficit” about the ongoing eligibility of licensees
that Illinois cannot overcome for any but those who reside in similarly situated states. But this deficit is not
as severe as Illinois would have the court believe.
It is true Illinois maintains an extensive monitoring system to keep tabs on its own residents, including
their voluntary mental-health treatments. Illinois says
that because it cannot keep the same watchful eye on
nonresidents, it must depend on those licensees’ states
to keep substantially similar eyes on them. In practice,
this amounts to Illinois relying on national databases
it checks quarterly to make sure its nonresident

App. 33
licensees have no disqualifying issues. Several facts
demonstrate that this system is not a “close fit” to Illinois’s goal of ensuring an ineligible person is not allowed to keep his license.
To begin with, Illinois’s failure to send out a new
survey since 2015 significantly undermines its argument that its system is tailored to its goal. In 2013, Illinois decided Hawaii, New Mexico, and South
Carolina were “sufficiently similar.” But between 2013
and 2015, the laws in those states changed to the point
Illinois felt it could no longer trust them. This evidences that laws and practices can materially change
in a short amount of time. Nevertheless, Illinois has
been content to let Arkansas, Mississippi, Texas, and
Virginia remain undisturbed as “substantially similar”
states since 2015, without even a check-up survey. Illinois’s failure to ensure the states it trusts are still reliable weakens its assertion that depending on those
states is critical to protecting its citizens.
Furthermore, relying on other states hardly provides the kind of systematic, up-to-date monitoring
Illinois claims it needs. For one thing, two of the “substantially similar” states appear to rely on selfreporting of mental-health issues. Virginia, while it
does track voluntary mental-health admissions, does
so only by self-reporting. See Va. Response to Ill. Survey,
App. 293 (“There is no systematic way of checking voluntary admissions in Virginia other than self reporting.”). Arkansas indicated it relied on self-reporting as

App. 34
well. See Ark. Response to Ill. Survey, App. 147.4 Yet
these two states have systems upon which Illinois is
willing to rely.
More generally, amicus Everytown for Gun Safety
warns the court of the dangers of relying on “national
databases to perform background checks . . . and to
monitor permit holders’ continued law-abiding status.”
Br. of Everytown for Gun Safety at 14. Amicus tells us
it can take “over a year” for a felony conviction in Mississippi, a “substantially similar state,” to find its way
onto a national database. Id. at 17. Concerning mentalhealth reporting, amicus lists Arkansas among states
that report mental-health records “at a per-capita rate
that is aberrantly low compared to other states.” Id. at
19–20 & n.29. Similar to the failure to send out new
surveys, these reported deficiencies undercut Illinois’s
“close fit” argument.
As a final point, the “information deficit” could be
worked around just like problems with the initial application. Instead of relying on these (potentially
flawed) databases, Illinois could have nonresident licensees from substantially dissimilar states submit
verified, quarterly updates on their statuses, including
quarterly mental-health certifications.5 In addition to
4

In Arkansas’s response to Illinois’s survey, it said it requires an applicant for a license to “provide information concerning their mental health status at the time of application” but
there is no “check or validation of the information provided by the
applicant.” Ark. Response to Ill. Survey, App. 147.
5
In suggesting Illinois could impose quarterly reporting and
mental-health-certification requirements, I do not mean to suggest

App. 35
allowing “law-abiding, responsible” citizens from every
state in the Union to seek a license, this approach
would have the added benefit of ensuring timely and
accurate information the national databases cannot
guarantee.
III.
Illinois’s scheme categorically prevents the lawabiding citizens from a vast majority of the country
from even applying for the ability to exercise their constitutional right to bear arms in public for self-defense
in Illinois. That crosses a constitutional line, and Illinois must do more than show its system “broadly
serves the public good.” See Binderup v. Att’y Gen. U.S.,
836 F.3d 336, 380 (3d Cir. 2016) (en banc) (Hardiman,
J., concurring in part and concurring in the judgments). It has not done so. I respectfully dissent.

those would independently pass constitutional muster. But it is
enough for the purposes of this case to conclude there are significantly less restrictive means of achieving Illinois’s goal apart from
an outright ban. See Moore, 702 F.3d at 942 (“[W]e need not speculate on the limits that Illinois may in the interest of public safety
constitutionally impose on the carrying of guns in public; it is
enough that the limits it has imposed go too far.”).

App. 36
IN THE UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
SPRINGFIELD DIVISION
)
)
)
)
)
)
)
)
)
)
)
)
)
Plaintiffs,
) No. 14-CV-3320
)
v.
)
)
LISA MADIGAN, in her
Official Capacity as Attorney )
General of the State of Illinois; )
)
LEO P. SCHMITZ, in his
Official Capacity as Director )
of the Illinois State Police, and )
JESSICA TRAME, as Bureau )
)
Chief of the Illinois State Police
)
Firearms Services Bureau,
)
)
Defendants.
KEVIN W. CULP, MARLOW
DAVIS, FREDDIE REED-DAVIS,
DOUGLAS W. ZYLSTRA,
JOHN S. KOLLER, STEVE
STEVENSON, PAUL HESLIN,
MARLIN MANGELS,
JEANELLE WESTROM,
SECOND AMENDMENT
FOUNDATION, INC., ILLINOIS
CARRY, and ILLINOIS STATE
RIFLE ASSOCIATION,

App. 37
OPINION
(Filed Sep. 18, 2017)
SUE E. MYERSCOUGH, U.S. District Judge.
This cause is before the Court on the Motion for
Summary Judgment (d/e 45) filed by Plaintiffs Kevin
W. Culp, Marlow Davis, Freddie Reed-Davis, Douglas
W. Zylstra, John S. Koller, Steve Stevenson, Paul Heslin,
Marlin Mangels, Jeanelle Westrom, Second Amendment Foundation, Inc., Illinois Carry, and Illinois State
Rifle Association and the Motion for Summary Judgment (d/e 43) filed by Defendants Lisa Madigan, in her
official capacity as Attorney General of the State of Illinois; Leo P. Schmitz, in his official capacity as Director of the Illinois State Police; and Jessica Trame, as
Bureau Chief of the Illinois State Police, Firearms Services Bureau. On August 22, 2017, the Court held a
hearing on the motions.
The Court finds that the result in this case is
largely dictated by the Seventh Circuit’s decision on
appeal of this Court’s denial of a preliminary injunction. Applying the level of scrutiny applied by the
Seventh Circuit on appeal, the Court finds that the
challenged law is substantially related to Illinois’ important public-safety interest. Therefore, Defendants’
Motion for Summary Judgment (d/e 43) is GRANTED,
and Plaintiffs’ Motion for Summary Judgment (d/e 45)
is DENIED.

App. 38
I.

BACKGROUND

Plaintiffs include individuals who are residents
of Wisconsin, Colorado, Missouri, Iowa, Pennsylvania,
and Indiana1 who would apply for a concealed carry
permit if able and who would carry firearms in Illinois
but fear prosecution. The individual Plaintiffs, all of
whom hold concealed carry licenses in their home states,
work in or visit Illinois. Plaintiffs also include three organizations, Second Amended Foundation, Inc., Illinois
Carry, and Illinois State Rifle Association, who assert
that they have many non-Illinois resident members
who work in, travel to, and spend significant amounts
of time in Illinois and would apply for concealed carry
permits if able. This Court previously found that Plaintiffs had standing to bring this lawsuit. Culp v. Madigan, No. 14-CV-3320, 2015 WL 13037427, at *11 (C.D.
Ill. Dec. 7, 2015) (Culp I).
Plaintiffs allege that Section 40 of the Illinois Firearm Concealed Carry Act (Concealed Carry Act) (430
ILCS 66/40) and all other statutory language that restricts otherwise-qualified nonresidents of Illinois of
the rights and privileges of carrying concealed firearms based solely on their state of residence violates
their Second Amendment rights, the Equal Protection
Clause of the Fourteenth Amendment to the United
States Constitution, the Privileges and Immunities
Clause of Article IV, § 2, and the Due Process Clause of
1

At oral argument, the parties advised the Court that Plaintiff Culp, who is a legal resident of Pennsylvania and who was
stationed in Illinois when the case was filed, is now stationed in
Ohio.

App. 39
the Fourteenth Amendment. Plaintiffs seek a declaratory judgment that Section 40 of the Concealed Carry
Act and all other Illinois statutory language that restricts otherwise qualified nonresidents of Illinois of
the rights and privileges of carrying concealed firearms based solely on their states of resident is unconstitutional. Plaintiffs also seek a permanent injunction
barring enforcement of the challenged laws.
A. Relevant Law Governing the Possession or
Carrying of Firearms in Illinois
Two Illinois statutes govern the possession and
carrying of firearms in Illinois: the Firearm Owners
Identification Card Act (430 ILCS 65/0.01 et seq.,)
(FOID Act) which permits qualified individuals to possess firearms, and the Concealed Carry Act (430 ILCS
66/1 et seq.), which permits qualified individuals to
carry concealed handguns in public. Nonresident applicants for a concealed carry license must meet all of
the requirements for a FOID card except residency.
1. The FOID Act
The FOID Act generally prohibits a person from
possessing a firearm in Illinois unless the person has a
FOID card. 430 ILCS 65/2(a). Among its many requirements, the FOID Act requires that an applicant be a
resident, with certain exceptions. See 430 ILCS 65/4(a10). In addition, the FOID Act allows nonresidents to
possess a firearm in Illinois without a FOID card in
certain instances, including where the nonresident is

App. 40
currently licensed or registered to possess a firearm in
his resident state (430 ILCS 65/2(b)(10)); certain nonresident hunters (430 ILCS 65/2(b)(5), (13)); nonresidents while on a firing or shooting range (430 ILCS
65/2(b)(7)); nonresidents while at a firearm showing or
display recognized by the Department of State Police
(hereinafter referred to as the Illinois State Police or
the ISP) (430 ILCS 65/2(8)); and nonresidents whose
firearms are unloaded and enclosed in a case (430
ILCS 65/2(9)).
An application for a FOID card may be denied or
revoked based on the applicant’s criminal or mental
health history (among other reasons not relevant to
the issues herein). See generally 430 ILCS 65/8; see
also 430 ILCS 65/4(a)(2) (requiring that an applicant
submit evidence to the ISP that he meets the qualifications for obtaining a FOID card). Grounds for denial
include that the applicant has been convicted of a felony (740 ILCS 65/8(c)); has been convicted within the
past five years of battery, assault, aggravated assault,
violation of an order of protection, or a substantially
similar offense in another jurisdiction in which a firearm was used or possessed (430 ILCS 65/8(k)); has
been convicted of domestic battery, aggravated domestic battery, or a substantially similar offense in another
jurisdiction before, on, or after January 1, 2012 (the effective date of Public Act 97-158, amending Section 8 of
the FOID Act) (430 ILCS 65/8(l)); or is prohibited under an Illinois statute or federal law from acquiring or
possessing a firearm or ammunition (430 ILCS 65/8(n)).
Those prohibited by federal law from possessing a

App. 41
firearm include those convicted of a crime punishable
by imprisonment for a term exceeding one year; persons adjudicated as a mental defective or who have
been committed to a mental institution; and persons
convicted in any court of a misdemeanor crime of domestic violence. See 18 U.S.C. § 922(g)(1), (g)(4), (g)(9).
In addition, the FOID card application may be denied or the license revoked if the person has been a patient in a mental health facility within the past five
years (430 ILCS 65/8(e)); has been a patient in a mental facility more than five years ago and has not received a certification from a qualified examiner that he
is not a clear and present danger to himself or others
(Id.); has a mental condition of such a nature that it
poses a clear and present danger to the applicant or
other person or the community (430 ILCS 65/8(f )); or
has been adjudicated a mentally disabled person (430
ILCS 65/8(r)).
The FOID Act also contains a reporting mechanism that allows the ISP to monitor the ongoing qualifications of FOID cardholders. See 430 ILCS 65/8.1.
For example, under the FOID Act, Illinois circuit court
clerks and other law enforcement agencies must notify
the ISP of certain criminal arrests, charges, and disposition information. See 430 ILCS 65/8.1(a); see also 20
ILCS 2630/2.1 (requiring the clerk of the circuit court,
Illinois Department of Corrections, sheriff of each
county, and state’s attorney of each county to submit
certain criminal arrests, charges, and disposition information to the ISP); 20 ILCS 2630/2.2 (requiring the circuit court clerk to report to the ISP’s Firearm Owner’s

App. 42
Identification Card Office convictions for certain violations of the Criminal Code when the defendant has
been determined to be subject to the prohibitions of 18
U.S.C. 922(g)(9)).2 In addition, a court that adjudicates
an individual as a mentally disabled person or finds
that a person has been involuntarily admitted must direct the circuit court clerk to notify the ISP’s FOID department and forward a copy of the court order to the
ISP. 430 ILCS 65/8.1(b); see also 430 ILCS 65/8.1(b-1)
(requiring that the circuit court clerk notify the ISP
FOID department twice a year if the court has not directed the circuit clerk to notify the ISP FOID department under subsection (b) within the preceding six
months because no person has been adjudicated a person with a mental disability or if no person has been
involuntarily admitted).
The FOID Act further requires that the Department of Human Services (DHS) report to the ISP all
information collected under subsection (b) of Section
12 of the Mental Health and Developmental Disabilities Confidentiality Act “for the purpose of determining
whether a person who may be or may have been a patient in a mental health facility is disqualified under State or federal law from receiving or retaining
a Firearm Owner’s Identification Card, or purchasing
a weapon.” 430 ILCS 65/8.1(c). Section 12(b) of the
Mental Health and Developmental Disabilities Confidentiality Act provides that all physicians, clinical
psychologists, and qualified examiners must provide
2

Providing that a person convicted of a misdemeanor crime of
domestic violence cannot possess a firearm. 18 U.S.C. § 922(g)(9).

App. 43
notice directly to DHS or his or her employer who shall
then notify DHS within 24 hours of determining a person poses a clear and present danger to himself, herself, or others, or within 7 days after a person 14 years
or older is determined to be a person with a developmental disability as described in Section 1.1 of the
FOID Act. 740 ILCS 110/12(b). Notice of an admission
of a patient—which includes a person who voluntarily
receives mental health treatment as an inpatient or
resident or who receives mental health treatment as
an outpatient and who poses a clear and present danger to himself, herself, or to others—must be furnished
to DHS within seven days of admission. Id.; see also
430 ILCS 65/1.1 (defining “patient”).
Similarly, every physician, clinical psychologist,
or qualified examiner who determines that a person
poses a clear and present danger to himself or others
must notify DHS within 24 hours of that determination. 430 ILCS 65/8.1(d)(1). Further, a law enforcement
official or school administrator who determines a person poses a clear and present danger to himself or others must notify the ISP within 24 hours of that
determination. 430 ILCS 65/8.1(d)(2).
2. The Concealed Carry Act
Illinois also provides a mechanism for individuals
to carry a concealed firearm in Illinois by way of the
Concealed Carry Act. 430 ILCS 66/1 et seq. Illinois is
a “shall issue” state, meaning that the ISP must issue a license if the applicant meets the qualifications,

App. 44
provides the application and documentation required,
submits the requisite fee, and does not pose a danger
to himself or a threat to public safety as determined by
the Carry Licensing Review Board. 430 ILCS 66/10(a).
The license is valid for five years and allows the licensee to carry a loaded or unloaded concealed or partially
concealed firearm on or about his person and within a
vehicle. 430 ILCS 66/10(c).
To qualify for a concealed carry license, the applicant must be at least 21 years of age; have a valid
FOID card and, at the time of the application, meet the
requirements for the issuance of a FOID card; have
not been in residential or court-ordered treatment for
alcoholism, alcohol detoxification, or drug treatment
within five years immediately preceding the date of the
application; and have completed firearms training. 430
ILCS 66/25(1), (2), (5), (6). In addition, the Concealed
Carry Act imposes additional requirements relating to
the applicant’s criminal history. The applicant must
not have been convicted or found guilty in any state of
(A) a misdemeanor involving the use or threat of physical force or violence to any person within five years
preceding the date of the application or (B) two or more
violations relating to driving while under the influence
of drugs or alcohol within five years preceding the date
of the application. 430 ILCS 66/25(3). Moreover, the applicant must not be the subject of a pending arrest,
warrant, prosecution, or proceeding for an offense or
action that could lead to disqualification to own or possess a firearm. 430 ILCS 66/25(4).

App. 45
The Concealed Carry Act requires that the ISP
conduct a background check of the applicants for concealed carry licenses. 430 ILCS 66/35. The background
check must consist of a search of the following: the Federal Bureau of Investigation’s National Instant Criminal Background Check System (NICS)3; all available
state and local criminal history record information
files, including records of juvenile adjudications; all
available federal, state, and local records regarding
wanted persons, domestic violence restraining orders,
and protective orders; DHS files relating to mental
health and developmental disabilities; and all other
available records of any federal, state, local agency, or
other public entity likely to contain information relevant to whether the applicant is prohibited from purchasing, possessing, or carrying a firearm. 430 ILCS
66/35. The ISP may charge applicants for conducting
the criminal history records check but that fee shall
not exceed the actual cost of the records check. Id.
The specific statutory provision Plaintiffs challenge here, Section 40 of the Concealed Carry Act, governs nonresident concealed carry license applications.
Specifically, this section of the Concealed Carry Act directs the ISP to, by rule, allow for nonresident license
applications from any state or territory of the United
3

According to the FBI website, NICS is a “national system
that checks available records on persons who may be disqualified
from receiving firearms.” https://www.fbi.gov/services/cjis/nics/aboutnics. “The NCIS is a computerized background check system designed to respond instantly on most background check inquiries
so the [Federal Firearms Licensees] receive an almost immediate
response.” Id.

App. 46
States with laws related to firearm ownership, possession, and carrying “that are substantially similar to the
requirements to obtain a license under” the Concealed
Carry Act. 430 ILCS 66/40(b). The ISP currently deems
a state’s law substantially similar when:
[t]he comparable state regulates who may carry
firearms, concealed or otherwise, in public;
prohibits all who have involuntary mental
health admissions, and those with voluntary
admissions within the past 5 years, from carrying firearms, concealed or otherwise, in public; reports denied persons to NICS; and
participates in reporting persons authorized
to carry firearms, concealed or otherwise, in
public through NLETs [sic] [(the National
Law Enforcement Telecommunications System)4].
20 Ill. Admin. Code § 1231.10. The four states currently deemed to have substantially similarly laws are
Arkansas, Mississippi, Texas, and Virginia. See https://
www.ispfsb.com/Public/Faq.aspx (all websites last visited September 15, 2017).
Only a nonresident applicant from a state with
substantially similar laws may apply for a nonresident
concealed carry license. 430 ILCS 66/40(c). The nonresident must meet all of the requirements contained in
4

NLETS “is the premiere interstate justice and public safety
network in the nation for the exchange of law enforcement-, criminal justice-, and public safety-related information.” http://nlets.
org/about/who-we-are. The ISP uses NLETS to determine if a nonresident’s state-issued concealed carry license is valid. Trame Aff.
¶ 13 (d/e 44-1).

App. 47
section 25 of the Concealed Carry Act, except for the
Illinois residency requirement. 430 ILCS 66/40(c). The
nonresident must submit the application and documents required under Section 30 of the Concealed
Carry Act and the applicable fee. 430 ILCS 66/40(c)(1).
The fee for a new license or renewal is $150 for an Illinois resident and $300 for a nonresident. 430 ILCS
66/60(b), (c).
Nonresidents are also required to meet additional
requirements. 430 ILCS 66/40. A nonresident applicant must submit a notarized document affirming that
he is eligible to own or possess a firearm under federal
law and the laws of his state or territory of residence;
that, if applicable, he has a license or permit to carry a
firearm, concealed or otherwise, issued by his state;
that he understands Illinois law pertaining to the possession and transport of firearms; and acknowledges
that he is subject to the jurisdiction of the ISP and Illinois courts for any violation of the Concealed Carry
Act. 430 ILCS 66/40(c)(2); see also 430 ILCS 66/40(c)(3),
(4) (requiring the applicant to submit a photocopy of
any evidence of compliance with the training requirements and a head and shoulder color photograph). In
lieu of an Illinois driver’s license or Illinois identification card, the nonresident applicant must provide
similar documentation from his state or territory of
residence. 430 ILCS 66/40(d). In lieu of a valid FOID
card, the nonresident applicant must submit the documentation and information required to obtain a FOID
card, including an affidavit that the nonresident meets
the mental health standards to obtain a firearm under

App. 48
Illinois law. 430 ILCS 66/40(d) (also requiring that the
ISP ensure the applicant would meet the eligibility criteria to obtain a FOID card if he were an Illinois resident).
The Concealed Carry Act specifically provides that
nothing in the Act prohibits a nonresident who does
not have an Illinois concealed carry license from transporting a concealed firearm in his or her vehicle if the
concealed firearm remains in the vehicle and the nonresident is not prohibited from owning a firearm under
federal law and is eligible to carry a firearm in public
under the laws of his state of residence. 430 ILCS
66/40(e). If the vehicle is unattended, however, the firearm must be stored within a locked vehicle or a locked
container. Id.
The Concealed Carry Act imposes an additional
reporting obligation on schools. Section 105 requires
that school administrators report to the ISP when a
student of a public or private elementary school, secondary school, community college, college, or university is determined to pose a clear and present danger
to himself or others within 24 hours of such determination. 430 ILCS 66/105.
3. The ISP Sends Surveys to Other States and the
District of Columbia
Pursuant to 20 Ill. Admin. Code § 1231.110(c), the
ISP sent Surveys to determine if other states had “substantially similar” firearms laws. Trame Aff. ¶¶ 26-30
(d/e 44-1). Specifically, in 2013, the ISP sent Surveys to

App. 49
each of the 49 other states and the District of Columbia
requesting information regarding their regulation of
firearms use and reporting and tracking mechanisms
relative to criminal activity and mental health issues.
Id. ¶ 26. In 2014, the ISP sent a second Survey to those
states which did not respond to the first Survey. Id. The
following states did not respond to the ISP’s 2013
or 2014 requests for information: Colorado, Maine,
Maryland, Massachusetts, Nevada, Pennsylvania, and
Rhode Island. Id. ¶ 27. Of those states responding to
the 2013 Survey, only Hawaii, New Mexico, South Carolina, and Virginia were found to have laws similar to
Illinois’ laws by regulating who may carry firearms in
public, reporting persons authorized to carry firearms
though NLETS, reporting denied persons through
NICS, prohibiting persons voluntarily admitted to a
mental health facility within the last five years from
possessing or using firearms, and prohibiting persons
involuntarily admitted to mental health facilities from
possessing or using firearms. Id. ¶ 28.
In 2015, the ISP again sent Surveys to each of the
49 other states and to the District of Columbia requesting information regarding their regulation of firearm
use and reporting and tracking mechanisms relative to
criminal activity and mental health issues. Trame Aff.
¶ 29. ISP Firearms Services Bureau staff telephoned
the states which did not respond to the 2015 Survey to
follow up on the status of the states’ responses. Id. Colorado and Maryland never responded to the 2015 Survey. Id. ¶ 30.

App. 50
The 2015 Survey asked:
1. Does your state issue a Concealed Carry
License?
a. If YES, for what length of time is the
license issued?
b. At what age can an individual apply
for a Concealed Carry License?
2. Is a National Instant Criminal Background Check System (NICS) background
check completed at the time of issuance of a
Concealed Carry License?
a. Is a secondary/repeated background
check conducted after the initial application approval process during the lifetime
of the license/permit?
3. Does your state report Concealed Carry
Licenses via the National Law Enforcement
Teletype System (NLETS)?
4. Does your state prohibit the use or possession of firearms based on adjudication as a
mentally defective person or committed [sic]
to a mental institutional (18 U.S.C. 922(g)(4))?
5. Does your state report adjudicated mentally defective/committed persons to the NICS
Index?
a. If YES, please describe your state’s
collection/reporting process in accordance
with 18 USC 922(g)(4).

App. 51
b. If YES, is there a mechanism within
the state to check for the federal mental
health prohibitor during the lifetime of
the license/permit?
6. Does your state prohibit the use or possession of firearms based on a voluntary mental
health admission within the last five years?
a. If YES, are mental health admissions
reported to your agency by any entity
other than the applicant?
If YES, to 6.a., please describe.
b. If YES, does the applicant provide information concerning their mental health
status at the time of application?
c. If YES, is there any check or validation of the information provided by the
applicant?
If YES to 6.c., please describe.
d. If YES, please provide your state statute reference.
e. If NO, does your state have any process for prohibiting the use or possession
of firearms based on a voluntary mental
health admission to a treatment facility?
If YES to 6.e., please describe.
7. If you answered NO to any of the questions 4-6, does your state have any other procedures for the consideration of mental health
and the use or possession of firearms?

App. 52
a.

If YES, please describe.

8. If you answered NO to any of the questions 4-6, is there pending state legislation
that addresses the concern of mental health
treatment and the possession of firearms?
a.

If YES, what is the effective date?

b. If YES, please provide a copy of the
legislative language.
See 2015 Survey (d/e 44-2). The ISP found that
only four states had laws that were substantially similar to Illinois’ laws: Arkansas, Mississippi, Texas, and
Virginia. See https://www.ispfsb.com/Public/Faq.aspx.
B. The Court Denied Plaintiffs’ Motion for Preliminary Injunction, and the Seventh Circuit Affirmed
On August 7, 2015, after the close of fact discovery,
Plaintiffs filed a Motion for Preliminary Injunction (d/e
17). The Court held a hearing on the Motion and, on
December 4, 2015, denied the Motion. Culp I, 2015 WL
13037427. The Court applied intermediate scrutiny
and found that Plaintiffs demonstrated “at least a better-than-negligible likelihood of success on the merits.”
Id. at *16; see also id. at *17 (finding the likelihood of
success “neither strong nor weak”). The Court also
found that Plaintiffs could show irreparable harm and
no adequate remedy at law. Id. at *16. The Court denied the Motion, however, because the balance of
harms and the public interest weighed in favor of denying the preliminary injunction. Id. at *17-18.

App. 53
On October 20, 2016, the Seventh Circuit affirmed
the denial of Plaintiffs’ Motion for Preliminary Injunction, with Judge Daniel A. Manion dissenting. Culp v.
Madigan, 840 F.3d 400 (7th Cir. 2016) (Culp II). The
majority noted that Plaintiffs’ claim to be allowed to
carry concealed firearms when visiting Illinois “would
be compelling if the Illinois authorities could reliably
determine whether in fact a nonresident applicant for
an Illinois concealed-carry license had all of the qualifications that Illinois, or states that have concealed
carry laws substantially similar to Illinois, require to
be met.” Id. at 402. However, while Illinois state police
have access to information about Illinois residents,
such information is not reliably accessible regarding
nonresident applicants, except in the four substantially similar states. Id. (also noting Jessica Trame’s
“uncontradicted affidavit” regarding the sources the Illinois Firearms Services Bureau relies on in determining eligibility). The majority noted that, while Illinois
can request information from local jurisdictions in
other states, those jurisdictions charge a fee, and the
Bureau lacks the funds to pay the charges. Id. at 403.
The Bureau has also encountered significant difficulties in its efforts to obtain mental health information
about residents of other states, as many states do not
track such information. Id.
The majority also noted Illinois’ need for reliable
information to monitor the holders of gun permits.
Culp II, 840 F.3d at 403. Illinois checks its own databases daily and national databases quarterly for updates that might require a license to be revoked but

App. 54
cannot obtain such updates from states that do not
track or report that information. Id.
The majority recognized that Plaintiffs made
“some apt criticism of the Illinois law.” Id. For example,
an Illinois resident can travel to another state and Illinois authorities will not know if he committed a crime
or suffered a mental breakdown while in that other
state if it is not one of the four states with substantially
similar firearm laws. Id. In addition, anyone who lives
in Illinois or one of the four substantially similar states
can obtain an Illinois concealed carry license even if he
became a resident of that state recently after years of
living in a dissimilar state—and Illinois would be unable to obtain information about possible criminal or
mental problems in that dissimilar state. Id.
Although the majority concluded the law was imperfect, the majority found it could not say the law was
“unreasonable, so imperfect as to justify the issuance
of a preliminary injunction.” Culp II, 840 F.3d at 403.
The majority stated:
The critical problem presented by the plaintiffs’
demand—for which they offer no solution—is
verification. A nonresident’s application for an
Illinois concealed-carry license cannot be
taken at face value. The assertions in it must
be verified. And Illinois needs to receive reliable updates in order to confirm that licenseholders remain qualified during the five-year
term of the license. Yet its ability to verify is
extremely limited unless the nonresident lives

App. 55
in one of the four states that have concealedcarry laws similar to Illinois’ law. A trial in
this case may cast the facts in a different
light, but the plaintiffs have not made a case
for a preliminary injunction.
Id.
The dissenting judge disagreed with what he
called the rational-basis review applied by the majority. Id. at 404 (Manion, J., dissenting). The dissenting
judge concluded that “the nonresident application ban
functions as a categorical prohibition of applications
from the majority of Americans” and constituted a severe burden on Second Amendment rights. Id. at 407.
Accordingly, the dissenting judge applied a level of
scrutiny greater than intermediate scrutiny but not
quite strict scrutiny and held that Defendants had
to show a close fit between the law and a strong public interest. Id. Applying that level of scrutiny, the dissenting judge stated that Illinois’ chosen method of
regulating “nonresident concealed-carry license applications is not sufficiently tailored to its goal of properly
vetting out-of-state applicants’ criminal and mental
histories.” Id. at 404. The dissenting judge also noted
the over-inclusive and under-inclusive sweep of the
statute, which undercut Illinois’ justification for maintaining the nonresident application ban. Id. at 408-09.
The dissenting judge further found that Illinois had
not shown that it would be impossible or impracticable
for out-of-state residents to provide verified records
that would satisfy Illinois’ requirements. Id. at 409.
Nonresidents could pay for criminal searches and

App. 56
provide relevant records to Illinois. Id. Nonresident applicants could also obtain certification that they satisfy
Illinois’s mental health requirements. Id. “Potential
applicants should at least be given that chance.” Id.
C. The Parties Filed Cross Motions for Summary Judgment
In January 2017, the parties filed cross motions for
summary judgment. On August 22, 2017, the Court
held oral argument on the motions.
Defendants support their Motion for Summary
Judgment with the affidavit of Jessica Trame, the Bureau Chief of the ISP Firearms Services Bureau.
Trame is responsible for administering the FOID Program, the Firearms Transfer Inquiry Program, and the
Concealed Carry Licensing Program and is familiar
with the protocols and procedures of each program.
Trame Aff. ¶ 2 (d/e 44-1). Trame explains the difficulty
of verifying nonresident applicants’ identities, criminal
history, mental health information, and obtaining updated nonresident information necessary to revoke a
concealed carry license. The affidavit submitted in support of summary judgment is substantially the same
as the affidavit submitted at the preliminary injunction stage but includes additional information regarding the 2015 Survey. See id.; see also Trame Supp. Aff.
(d/e 52-1) (explaining that the ISP recently reviewed
the 2015 Survey data and determined that Arkansas,
Mississippi, Texas, and Virginia have substantially
similar laws).

App. 57
According to Trame, the Firearms Services Bureau performs a background check on each applicant
for a concealed carry license. Trame Aff. ¶ 4. This background check process is intended to ensure public
safety by identifying persons who are unqualified to
carry firearms. Id. ¶ 8.
The background check includes queries of the national systems such as the National Crime Information
Center (NCIC),5 NICS, the Interstate Identification
Index,6 Immigration and Customs Enforcement, and
NLETS. The Bureau also checks the Illinois systems,
including the Criminal History Record Information
system, driver’s license or identification systems maintained by the Secretary of State, and the Computerized
Hot Files system, which is “a central online repository
for numerous officer and public safety information repositories” that is maintained by the ISP. Trame Aff.
¶ 6.
5

This is the mechanism criminal justice agencies use to access over 13 million active records. The NCIC database consists
of 21 files, including 14 “persons” files such as the National Sex
Offender Registry, Foreign Fugitives, Immigration Violations, Orders of Protection, and Wanted Persons. See Trame Aff. ¶ 13. “The
NCIC has operated under a shared management concept between
the FBI and federal, state, local, and tribal criminal justice users
since its inception.” See https://www.fbi.gov/services/cjis/ncic
6
The Interstate Identification Index is the national criminal
history record system. See Trame Aff. ¶ 13. As of March 31, 2016,
30 states and the District of Columbia participate only in the Interstate Identification Index while 20 states participate in Interstate Identification Index and the National Fingerprint File. https://
www.fbi.gov/services/cjis/compact-council/interstate-identificationindex-iii-national-fingerprint-file-nff

App. 58
For Illinois residents, the Firearm Services Bureau is able to locate criminal history through Illinois’
Criminal History Record Inquiry, a system maintained
by ISP; the Computerized Hot Files; and from federal
systems. Id. ¶ 11. Because the Bureau does not have
direct access to other states’ local or state criminal history databases, the Bureau relies on federal databases
to obtain out-of-state criminal history information. Id.
¶ 12. Trame indicates, however, that many states provide the federal databases with only a summary of an
arrest. This information is often inadequate to assess
an applicant’s eligibility for a concealed carry license.
Id. Although the ISP may request a criminal record if
the federal database is incomplete, many jurisdictions
charge for records, and the ISP does not have funds appropriated to pay for any records. Id.
The ISP uses NLETS to determine whether a nonresident applicant’s state-issued concealed carry license is valid and to check the continued validity of the
home-state issued concealed carry license. Trame Aff.
¶ 13. The ISP is unable to obtain accurate and updated
information via NLETS and NCIC for residents from
states which do not fully participate in those systems.
Id. ¶ 14.
In addition, information from the Interstate Identification Index may be limited because states are not
uniform in their reporting of different levels and types
of offenses. Id. ¶ 15. Only the National Fingerprint File
(NFF) provides detailed extracts directly from states’
local databases. Id. However, as of December 2016, only
20 states participate in the NFF: Colorado, Florida,

App. 59
Georgia, Hawaii, Idaho, Iowa, Kansas, Maryland, Minnesota, Missouri, Montana, North Carolina, New Jersey, New York, Ohio, Oklahoma, Oregon, Tennessee,
West Virginia, and Wyoming. Id.
Through the Illinois Department of Human Services FOID Mental Health System, the Firearm Services Bureau can access information on Illinois mental
health facility admissions and determine whether an
individual has been involuntarily admitted into a mental health facility in Illinois or been a patient in a mental health facility in Illinois within the past five years
or more. Trame Aff. ¶ 17. This System does not, however, contain records on out-of-state mental health facility admissions. Id. ¶ 18. In addition, the ISP does not
have access to other states’ mental health facility admission databases, to the extent the other states may
have them. Id.
Trame states that, in her experience, federal databases contain only limited information regarding involuntary mental health admissions or mental disability
adjudications and do not contain voluntary mental
health admission information. Trame Aff. ¶ 19. To
search for mental health information regarding nonresidents, the ISP is limited to information available
through the NICS Index, which contains some information regarding individuals prohibited from firearm
possession for mental health reasons under 18 U.S.C.
§ 922(g)(4) (making it unlawful for any persons who
has been adjudicated as a mental defective or who has
been committed to a mental institution from possessing a firearm). Id. ¶ 20. Moreover, not all states

App. 60
participate in the NICS Index. Id. ¶ 20. NICS does not
provide any information on voluntary mental health
admissions. Id.
On a daily basis, all resident concealed carry license holders are checked against the Illinois Criminal
History Record Inquiry and DHS Mental Health Systems (by virtue of their FOID card) for any new conditions that would disqualify them from holding a FOID
card or a concealed carry license. Trame Aff. ¶ 21. All
concealed carry license holders, both resident and nonresident, are checked against the federal databases on
a quarterly basis. Id.
Trame explains in her affidavit why it is difficult
for the Firearm Services Bureau to obtain updated
nonresident information relevant to revoking a concealed carry license. Trame states that, while Illinois
physicians, law enforcement officials, and school administrators are required to report persons that may
be a clear and present danger to themselves or others,
the ISP does not receive reports from out-of-state physicians, law enforcement officials, or school administrators concerning out-of-state persons presenting a clear
and present danger. Id. ¶ 22. Moreover, daily checks of
the DHS Mental Health Systems would not reveal information concerning persons in other states. Id.
In addition, Illinois circuit clerks must report to
ISP persons who have been adjudicated as mentally
disabled or those involuntary admitted to a mental
health facility. Trame Aff. ¶ 23. Trame is not aware of
any other state that is required to, or does, report such

App. 61
cases to ISP. Id. Similarly, DHS must report to ISP information collected pertaining to voluntary and involuntary mental health treatment admissions, as well as
patients with intellectual or development disabilities
or those who have been deemed to be a clear and present danger. Id. ¶ 24.
The ISP can request information from out-of-state
mental health entities, but many of the out-of-state
mental health entities do not provide mental health information even after an ISP request. Id. ¶ 24. According to Trame, the ISP’s lack of access to this type of
data held by other states would make it virtually impossible to effectively conduct the level of screening
and monitoring on nonresident concealed carry license
applications that is performed on resident applicants.
Id. ¶ 25.
II.

LEGAL STANDARD

Summary judgment is proper if the movant shows
that no genuine dispute exists as to any material fact
and that the movant is entitled to judgment as a matter of law. Fed. R. Civ. P. 56(a). The movant bears the
initial responsibility of informing the court of the basis
for the motion and identifying the evidence the movant
believes demonstrates the absence of a genuine issue
of material fact. Celotex Corp. v. Catrett, 477 U.S. 317,
323 (1986). No genuine issue of material fact exists if
a reasonable factfinder could not find in favor of the
nonmoving party. Brewer v. Bd. of Trs. of the Univ. of
Ill., 479 F.3d 908, 915 (7th Cir. 2007). When ruling on a

App. 62
motion for summary judgment, the court must consider the facts in the light most favorable to the nonmoving party, drawing all reasonable inferences in the
nonmoving party’s favor. Blasius v. Angel Auto., Inc.,
839 F.3d 639, 644 (7th Cir. 2016).
III.

PLAINTIFFS’ REQUEST FOR DISCOVERY

As an initial matter, the Court notes that Plaintiffs assert, in their response to Defendants’ Motion for
Summary Judgment, that they should have been allowed a brief period to disclose expert witnesses and
conduct limited discovery. Pls. Resp. at 7 (d/e 56). Plaintiffs claim that the “entire pendency of this case involved a preliminary injunction Motion and the appeal
thereof.” Id. Plaintiffs also state that they incorrectly
believed that when the appeal was concluded in favor
of Defendants there would be a period of time for discovery before dispositive motions were due. Plaintiffs
argue that, at a minimum, Defendants’ motion should
be denied and any factual disputes fleshed out through
an abbreviated discovery process.
Plaintiffs’ contention that the entire pendency of
this case involved a preliminary injunction and an appeal is incorrect. The record reflects that Plaintiffs had
the opportunity to conduct discovery and failed to do
so.
Plaintiffs filed suit in October 2014. In March 2015,
United States Magistrate Judge Tom Schanzle-Haskins
entered a Scheduling Order (d/e 16). The Scheduling
Order provided the following deadlines: (1) Plaintiffs

App. 63
shall identify testifying experts and provide Rule 26
expert reports by July 24, 2015; (2) Defendants shall
identify testifying experts and provide Rule 26 expert
reports by September 22, 2015; (3) the parties shall
complete fact discovery by June 24, 2015; (4) the parties shall complete expert discovery by October 22,
2015; and (5) the parties shall file dispositive motions
by November 23, 2015. Id.
On August 7, 2015, after the close of fact discovery,
Plaintiffs filed the Motion for Preliminary Injunction
(d/e 17). On October 16, 2015, the Court held a hearing
on the Motion. On November 23, 2015, Defendants
filed a Motion for Summary Judgment (d/e 27).
On December 4, 2015, the Court issued a decision
denying Plaintiffs’ Motion for Preliminary Injunction
(d/e 29). Plaintiffs appealed, and the Seventh Circuit
affirmed. Culp II, 840 F.3d 400.
On November 16, 2016, following the issuance of
the mandate, this Court entered a text order setting
the dispositive motion deadline for December 28, 2016
and setting trial and pretrial dates. On December 23,
2016, Plaintiffs filed a motion (d/e 38) seeking an extension of time to complete discovery and to file motions for summary judgment. Plaintiffs indicated that
they wanted the opportunity to disclose an expert witness and allow Defendants the opportunity to depose
that witness. Plaintiffs also wanted the opportunity to
depose Defendant’s main witness, Jessica Trame, and
obtain any updated records from Defendants regarding the issues in the case.

App. 64
On January 3, 2017, Judge Schanzle-Haskins denied Plaintiffs’ request to reopen discovery. Opinion
and Order (d/e 42). Judge Schanzle-Haskins found that
Plaintiff had the opportunity to conduct discovery in
this case prior to the discovery deadline but did not do
so. Id. at 9. For example, Defendants served Plaintiffs
with interrogatories, which asked Plaintiffs to identify
any persons who would offer opinion testimony in the
case. Id. at 8. Plaintiffs never responded or objected to
the interrogatories. Id. In addition, Defendants disclosed Jessica Trame in their initial Rule 26 disclosures. Id. Plaintiffs could have deposed Trame anytime
between April 16, 2015 and the close of expert discovery on October 22, 2015. Id. at 9. Plaintiffs apparently
made no attempt to take Trame’s deposition. Id. Judge
Schanzle-Haskins extended the dispositive motion
deadline to January 13, 2017. Plaintiffs did not object
to this Order. See Fed. R. Civ. P. 72(a) (providing that a
party may object to a magistrate judge’s ruling on a
nondispositive matter within 14 days after being
served with the order and that the party “may not assign as error a defect in the order not timely objected
to”).
This Court could consider the issue sua sponte and
allow discovery if the Court finds Judge SchanzleHaskins’ Order clearly erroneous or contrary to law.
See Fed. R. Civ. P. 72(a); Schur v. L.A. Weight Loss
Ctrs., Inc., 577 F.3d 752, 760-61 (7th Cir. 2009) (noting
that the district judge is not precluded from reviewing
a magistrate judge’s order even when a party does not
object). The Court finds that the Order was neither

App. 65
clearly erroneous nor contrary to law and, therefore,
will not reopen discovery. The Court now turns to the
merits of the motions for summary judgment.
IV.

ANALYSIS

Plaintiffs seek a permanent injunction barring enforcement of Section 40 of the Concealed Carry Act and
all other Illinois statutory language that restrict otherwise-qualified nonresidents of Illinois from carrying
concealed firearms based solely on their states of residence. To obtain a permanent injunction, Plaintiffs
must prevail on the merits and demonstrate: (1) irreparable injury; (2) inadequate remedy at law; (3) that
the balance of hardships favors a remedy in equity; and
(4) that the public interest would not be disserved by a
permanent injunction. eBay Inc. v. MercExchange, L.L.C.,
547 U.S. 388, 391 (2006); Sierra Club v. Franklin Cnty.
Power of Ill., LLC, 546 F.3d 918, 935 (7th Cir. 2008).
Plaintiffs move for summary judgment, asserting
that Illinois’ licensing mechanism is discriminatory
and unconstitutionally burdens the exercise of Plaintiffs’ constitutional rights.
Defendants move for summary judgment asserting that the challenged regulations are reasonably related to Illinois’ important and substantial interest in
protecting the public by ensuring initial and continued
eligibility for concealed carry licenses and Illinois’ related interest in obtaining information necessary to
make those determinations.

App. 66
A. Defendants are Entitled to Summary Judgment on Plaintiffs’ Second Amendment Claim
The Second Amendment of the United States Constitution provides:
A well regulated Militia, being necessary to
the security of a free State, the right of the
people to keep and bear Arms, shall not be infringed.
U.S. Const. amend. II. In District of Columbia v. Heller,
the United States Supreme Court held that there is
a guaranteed “individual right to possess and carry
weapons in case of confrontation” based on the Second
Amendment. Heller, 554 U.S. 570, 592 (2008) (also holding that the Second Amended “codified a pre-existing
right”) (emphasis in original). Consequently, the Court
found that the District of Columbia’s ban on handgun
possession in the home violated the Second Amendment. Id. at 635.
Nonetheless, the Court recognized that the right
was not unlimited, and that:
nothing in our opinion should be taken to cast
doubt on longstanding prohibitions on the
possession of firearms by felons and the mentally ill, or laws forbidding the carrying of firearms in sensitive places such as schools and
government buildings, or laws imposing conditions and qualifications in the commercial
sale of arms.
Id. at 627 (also recognizing that limits on the carrying
of dangerous and unusual weapons may be imposed);

App. 67
see also McDonald v. City of Chi., 561 U.S. 742, 750
(2010) (finding the Second Amendment fully applicable
to the states through the Due Process Clause of the
Fourteenth Amendment).
A two-step framework applies when resolving
Second Amendment cases. The Court first determines
whether the regulated activity falls within the scope
of the Second Amendment, and, if so, examines the
“strength of the government’s justification for restricting or regulating the exercise of Second Amendment
rights.” Ezell v. City of Chi., 651 F.3d 684, 703 (7th Cir.
2011) (Ezell I).
Here, Defendants agree that the regulated conduct falls within the scope of the Second Amendment.
Defs. Mot. at 11 (d/e 44); see also Moore v. Madigan, 702
F.3d 933, 942 (7th Cir. 2012) (“The Supreme Court has
decided that the amendment confers a right to bear
arms for self-defense, which is as important outside the
home as inside.”); Southerland v. Escapa, 176 F. Supp. 3d
786, 790 (C.D. Ill. 2016) (Myerscough, J.) (finding that
the acts criminalized by the Illinois statute, “the ability
to openly carry any firearm, as well as the ability to
carry a concealed firearm aside from pistols, revolvers,
and handguns, is clearly within the scope of the Second
Amendment”). Therefore, the issue here is the strength
of Defendants’ justification for restricting or regulating
the exercise of Second Amendment rights. See Ezell v.
City of Chi., 846 F.3d 888, 892 (7th Cir. 2017) (Ezell II)
(noting that the government bears the burden of justifying the law under a heightened standard of scrutiny).

App. 68
Under the second step of the framework, the Court
must examine the “regulatory means the government
has chosen and the public-benefits end it seeks to
achieve.” Ezell I, 651 F.3d at 703. The rigor of this review depends on “how close the law comes to the core
of the Second Amendment right and the severity of the
law’s burden on the right.” Id.; see also Ill. Ass’n of Firearms Retailers v. City of Chi., 961 F. Supp. 2d 928, 935
(N.D. Ill. 2014) (“[T]he level of scrutiny applied varies
according to the breadth of the challenged Second
Amendment restriction”).
Broad prohibitory laws restricting core Second
Amendment rights are likely categorically unconstitutional. Ezell I, 651 F.3d at 703 (citing Heller and
McDonald, which involved regulations that prohibited
handgun possession in the home). For other laws, however, the appropriate standard of review is somewhere
between intermediate and strict scrutiny. As Heller
made clear, a rational-basis review is inappropriate in
the Second Amendment context. Heller, 554 U.S. at 628
n.27 (holding that “if all that was required to overcome
the right to keep and bear arms was a rational basis,
the Second Amendment would be redundant with the
separate constitutional prohibitions on irrational laws,
and would have no effect”); Ezell II, 846 F.3d at 892
(rational-basis review does not apply to laws restricting Second Amendment rights).
When a court applies a standard closer to intermediate scrutiny, the law must be substantially related to
an important government interest. See Horsley v.
Trame, 808 F.3d 1126, 1132 (7th Cir. 2015) (finding the

App. 69
law “substantially related to the achievement of the
state’s interests”); United States v. Shields, 789 F.3d
733, 750 (7th Cir. 2015) (concluding that “keeping firearms out of the hands of violent felons is an important
objective and, because the defendant was a violent
felon, applying § 922(g)(1) to the defendant was substantially related to that objective”). When a court applies a stronger form of intermediate scrutiny—one
closer to strict scrutiny—the government must demonstrate a strong public-interest justification for the law
and a close fit between the law and the public interests
the law serves. Ezell I, 651 F.3d at 708-09; Culp II, 840
F.3d at 407 (noting that when a law “curtails the fundamental right of law-abiding citizens to carry a
weapon for self-defense,” the government must show a
close fit between the law and a strong public interest)
(Manion, J., dissenting).
In deciding the appropriate level of scrutiny here,
this Court has the benefit of the Seventh Circuit’s decision on appeal of the denial of a preliminary injunction. Although the Court finds the dissent in Culp II to
be a well-reasoned analysis, this Court is bound by the
holding of the majority, which appears7 to find that
7

This Court says “appears” because the dissent accuses the
majority of applying a rational-basis review based on the majority
holding that the “application ban” was not unreasonable. Culp II,
840 F.3d at 404. However, precedent clearly establishes that a
rational-basis review is never applied in the Second Amendment
context. In addition, several courts have used the term “reasonable” when applying intermediate scrutiny. See Nat’l Rif le Ass’n of
Am., Inc. v. Bureau of Alcohol, Tobacco, Firearms, and Explosives, 700 F.3d 185, 207 (5th Cir. 2012) (applying intermediate
scrutiny to regulations prohibiting firearms dealers from selling

App. 70
intermediate scrutiny—and not the near-strict scrutiny applied by the dissent—applies. Culp II, 840 F.3d
at 403; Sierra Club v. Khanjee Holding (US) Inc., 655
F.3d 699, 704 (7th Cir. 2011) (“Matters decided on appeal become the law of a case to be followed on a second
appeal, unless there is plain error of law in the original
decision.”). Applying that level of scrutiny, the Seventh
Circuit found, based on the evidence presented at that
point, including the uncontroverted affidavit of Trame,
that the law was not unreasonable or so imperfect as
to justify the issuance of a preliminary injunction.
Culp II, 840 F.3d at 403. The majority noted, however,
that a trial in the case may cast the facts in a different
light. Id.
On summary judgment, Plaintiffs attempt to controvert Trame’s affidavit and cast the facts in a different light. Plaintiffs argue that the issues raised by
Trame in her Affidavit are outside the scope of the Concealed Carry Act. While this argument is not entirely
clear, Plaintiffs seem to be arguing that, under the
statutes, Illinois does not play any role in verifying
compliance or qualifications of applicants but is limited to checking the available database and records.
See Pls. Mem. at 11 (d/e 46) (stating that the applicant
is responsible for ensuring eligibility); at 13 (“Defendants cannot deny an application if they either choose
handguns to persons under age 21 and examining whether the
law was “reasonably adapted to an important government interest”); Ezell I, 651 F.3d at 708 (noting that, in commercial-speech
cases, intermediate scrutiny requires a reasonable fit between
the legislature’s ends and the means chosen to accomplish those
ends).

App. 71
to use an imperfect database, or if they get a less than
perfect response from their inquiries.”); at 13 (the statutes do allow for out-of-state law enforcement objections); at 15 (“The actual reading of the law does not
require ‘verification’ but instead requires the check be
made of the six listed categories.”); at 15-17 (appearing
to suggest that the ISP cannot verify nonresident mental health information under the statutes because nonresidents only have the burden of providing additional
notarized statements, affidavits, and other listed documents and that the statute does not allow an application to be denied if the ISP has difficulty obtaining a
“perfect investigation”). According to Plaintiffs, if the
available databases and records do not contain information that would bar the applicant, then the State
must issue the license.
The Court disagrees that Trame’s affidavit is outside the scope of the Act. The Concealed Carry Act provides that the ISP shall ensure that applicants comply
with the requirements of the Act as a condition for licensure. See 430 ILCS 66/35 (“The Department shall
conduct a background check of the applicant to ensure
compliance with the requirements of this Act and all
federal, State, and local laws.”); see also 430 ILCS
66/40(d) (“[T]he Department shall ensure that the applicant would meet the eligibility criteria to obtain a
Firearm Owner’s Identification card if he or she was a
resident of this State.”); 430 ILCS 66/10 (directing the
Department to issue licenses if the applicant, among
other things, “meets the qualifications of Section 25
of [the] Act.”). In addition, as the majority in Culp II

App. 72
noted, “[a] nonresident’s application for an Illinois concealed-carry license cannot be taken at face value. The
assertions in it must be verified.” Culp II, 840 F.3d
at 403. Finally, to the extent Plaintiffs argue that the
legislature did not grant the ISP authority to deny licenses for lack of information, the legislature has expressly directed the ISP to accept applications only
from Illinois residents or nonresidents from states
having substantially similar firearm laws. See 430
ILCS 66/40(c). An applicant from a state with dissimilar laws is not denied because of a lack of information
about the applicant but because the applicant is not
from a qualifying state. Therefore, the Court finds that
Trame’s Affidavit is relevant evidence.
Plaintiffs also assert that Illinois’ laws governing
nonresidents are arbitrary, pointing to what Plaintiffs
contend are discrepancies regarding the Surveys Illinois conducted of other states. Some of the discrepancies Plaintiffs cite appear to have been caused by the
fact that Illinois sent out a Survey in 2015 but did not
determine which states had substantially similar laws
until after Plaintiffs filed their Motion for Summary
Judgment in January 2017.
For example, Plaintiffs argue that, as of January
2017, Illinois recognized South Carolina as having substantially similar laws even though South Carolina
answered “no” to questions about voluntary mental
health admissions and the question whether South
Carolina reported concealed carry licenses via NLETS.
Pls. Mem. at 36 (d/e 46) (citing 2015 Survey Response). However, South Carolina was deemed to have

App. 73
substantially similar laws after receipt of the 2013
Survey, in which South Carolina responded “yes” to all
of the questions. After Illinois received the 2015 Survey responses—to which South Carolina responded
that it did not report concealed carry license via
NLETS and did not prohibit use or possession of firearms based on a voluntary mental health admission
within the last five years—Illinois determined that
South Carolina no longer had substantially similar
laws. Compare 2013 Survey (completed in March 2014)
(d/e 44-1 at 50 of 87) with 2015 Survey (d/e 44-2 at 14243 of 166).
Plaintiffs also argue that New Mexico answered
the 2013 and 2015 Surveys the same way but was removed from the substantially similar list after the
2015 Survey. Pls. Resp. at 40 (d/e 56). However, in the
2013 Survey (which New Mexico responded to in May
2014), New Mexico answered “yes” to the question,
“Does your state prohibit the use or possession of firearms based on a voluntary mental health admission
within the last five years?” See New Mexico Resp. to
2013 Survey (d/e 44-1 at 41 of 87). In response to the
same question in 2015, New Mexico answered “no.” See
New Mexico Resp. to 2015 Survey (d/e 44-2 at 120 of
166).
Plaintiffs next argue that Arkansas and New
Mexico answered the 2015 Survey the same way but
only Arkansas is currently deemed to have substantially similar laws. Pls. Resp. at 40. Defendants explain, however, that Arkansas clarified its 2015 Survey
response by stating that while there “are no blanket

App. 74
prohibitions on use or possession based on a voluntary
admission” within the last five years, an Arkansas applicant is ineligible for a concealed carry license if the
applicant has ever been voluntarily admitted to a mental health facility. Arkansas Resp. to 2015 Survey (d/e
44-2 at 15 of 166). New Mexico provided no such clarification.
Plaintiffs argue that Virginia answered “no” to the
question asking whether Virginia conducts an NICS
background check when Virginia issues a concealed
carry license but that Illinois still found Virginia had
substantially similar laws. Pls. Resp. at 41. Defendants
explain that Virginia answered “yes” to the question:
“Does your state report adjudicated mentally defective/
committed persons to the NICS Index.” See Virginia
Resp. to 2015 Survey (d/e 44-2 at 158 of 166). According
to Defendants, the question Virginia answered “yes” to
is the critical question for purposes of § 1231.10 and
tracks the third requirement of § 1231.10—that the
state report denied persons to NICS. Defendants further assert that the “substantially similar” definition
does not require that states conduct background checks
through NICS. See 20 Ill. Admin. Code § 1231.10 (only
defining “substantially similar” as including a state
that reports denied persons to NICS).
Plaintiffs also fault the ISP for finding Mississippi
substantially similar because Trame, in her affidavit,
attested to the difficulty of obtaining criminal history
information from Mississippi. See Trame Aff. ¶ 12 (giving Mississippi as an example of a state that reports
limited information to the Interstate Identification

App. 75
Index and requires a fee for criminal history information, as much as $80 for a search of the two criminal
courts and two civil courts in just one county). Defendants explain that, when the Affidavit was prepared,
Mississippi had not been deemed to have substantially
similar laws and that Trame provided a truthful example of the difficulty of obtaining criminal history information from a state that did not fully participate in
federal or multi-state systems. Defendants further state
that Mississippi is currently deemed a substantially
similar state because Mississippi now participates in
reporting persons authorized to carry firearms, concealed or otherwise, in public through NLETS, which
was a change from the 2013 Survey Response. Compare Mississippi 2013 Survey Response (d/e 44-1 at 34
of 87) with 2015 Survey Resp. (d/e 44-2 at 106 of 166).
The only “discrepancy” that Plaintiffs cite that appears to have some merit is the claim that Virginia is
deemed to have substantially similar laws even though
Virginia has no official mechanism for the reporting of
voluntary admissions to a mental health treatment facility. Specifically, while Virginia law prohibits use or
possession of firearms based on a voluntary mental
health admission within the last five years, Virginia
relies on self-reporting and does not have a systematic
way of checking voluntary admissions. See Virginia
2015 Survey Resp. (d/e 44-2 at 158-59 of 166).
This shows that Illinois’ law is not perfect and
could call into question the genuineness of Illinois’ alleged need to track voluntary admissions. However,
Virginia qualified as a substantially similar state

App. 76
because the definition of “substantially similar” in the
regulation requires that the state’s law prohibit those
with voluntary mental health admissions within the
past five years. 20 Ill. Admin. Code § 1231.10. Virginia
met that requirement.
Turning to the merits, the Court finds that Illinois
has an important and compelling interest in its citizens’ safety. Schall v. Martin, 467 U.S. 253, 264 (1984)
(“The ‘legitimate and compelling state interest’ in protecting the community from crime cannot be doubted.”).
Plaintiffs argue, however, that Defendants have no
proof that keeping concealed handguns out of the
hands of nonresidents is needed to protect the public.
In particular, Plaintiffs cite to scholarly articles suggesting that firearm permit holders—like Plaintiffs, all
of whom hold concealed carry licenses in their home
state—are at a low risk of misusing guns. See Pls.
Resp. at 43-45.
Long-standing prohibitions on the possession of
firearms by felons and the mentally ill are permissible.
Heller, 554 U.S. at 627; Moore, 702 F.3d at 940 (“And
empirical evidence of a public safety concern can be
dispensed with altogether when the ban is limited to
obviously dangerous persons such as felons and the
mentally ill.”). If prohibitions on the possession of firearms by felons and the mentally ill are permissible, a
state must have a way of determining whether an applicant is a felon or mentally ill.
Illinois’ laws are designed to ensure that felons
and the mentally ill do not obtain concealed carry

App. 77
licenses. In addition, Illinois’ laws are designed to monitor those who have concealed carry licenses to ensure
that the license holders remain qualified. Specifically,
the FOID Act and the Concealed Carry Act impose reporting requirements on circuit clerks, physicians,
mental health providers, law enforcement agencies,
school administrators, and the Department of Human
Services so that the ISP can monitor license holders.
In addition, Illinois uses federal and Illinois electronic
databases to verify initial eligibility and monitor continued eligibility for concealed carry licenses. On a
daily basis, Illinois checks all resident concealed carry
license holders against the Illinois Criminal History
Record Inquiry and DHS Mental Health Systems.
Trame Aff. ¶ 21. Illinois checks all concealed carry license holders, both resident and nonresident, against
the federal databases on a quarterly basis. Id.
If another state does not have substantially similar firearm laws as Illinois’ laws, Illinois cannot confirm that nonresidents from that state are qualified to
hold and maintain an Illinois concealed carry license.
For instance, one way Illinois can monitor nonresidents is by use of NLETS. The ISP checks NLETS to
confirm that a nonresident’s concealed carry license in
his home state remains valid. If another state has substantially similar firearm laws and reports concealed
carry licenses via NLETS, then Illinois can verify that
the nonresident applicant continues to meet Illinois’
requirements.
The Court recognizes that Illinois’ firearm laws
relating to nonresidents is not perfect. Nonetheless,
the law is substantially related to achieving Illinois’

App. 78
interest in keeping the concealed carry licenses out of
the hands of felons and the mentally ill. See Culp II,
840 F.3d at 403 (finding at the preliminary injunction
stage, on substantially the same evidence, that Illinois’
firearms laws relating to nonresidents met intermediate scrutiny). Illinois has a substantial interest
in restricting concealed carry licenses to those persons
whose qualifications can be verified and monitored.
The restriction barring nonresidents from states without substantially similar laws from applying for an Illinois concealed carry license is substantially related
to that strong public interest. Consequently, the Court
finds that the challenged laws do not violate the Second Amendment.
B. Defendants are Entitled to Summary Judgment on the Remaining Counts
Plaintiffs also claim that the nonresident application regulation/ban is unconstitutional under the Equal
Protection Clause, Due Process Clause, and Privileges
and Immunities Clause. However, because the nonresident application regulation/ban passes scrutiny under
the Second Amendment, then the regulation/ban passes
scrutiny under the other provisions because they do
not require a stronger showing.
The Equal Protection Clause requires strict scrutiny
of a legislative classification when the classification
impermissibly interferes with the exercise of a fundamental right or operates to the disadvantage of a suspect class. Mass. Bd. of Ret. v. Murgia, 427 U.S. 307, 312

App. 79
(1976). Where a Second Amendment challenge fails,
some courts have held that the equal protection claim
is subject to rational basis review and other have held
the claims is subject to intermediate scrutiny. See, e.g.,
Kwong v. Bloomberg, 723 F.3d 160, 170 n.19 (2d Cir.
2013) (noting that “courts have applied ‘rational basis’
review to Equal Protection claims on the theory that
the Second Amendment analysis sufficiently protects
one’s rights); Flanagan v. Harris, No. LA CV 16-06164
JAK (ASx), 2017 WL 729788, at *6 (C.D. Cal. Feb. 23,
2017) (holding that when a law survives a Second
Amendment challenge and does not involve a suspect
classification, courts have applied rational basis review to equal protection claims, the rationale being
that the Second Amendment analysis sufficiently protects the individual’s rights); United States v. Hayes,
No. No. 2:14-CR-72-PPS, 2014 WL 5390553, at *3 (N.D.
Ind. Oct. 22, 2014) (noting that the Seventh Circuit has
used intermediate scrutiny to review Second Amendment and Equal Protection challenges to some restrictions on gun ownership). In any event, a more stringent
level of review does not apply under the Equal Protection Clause than under the Second Amendment in this
case.
Plaintiffs argue that the nonresident application
ban violates the Privileges and Immunities Clause of
Article IV of the Constitution, which provides that “[t]he
Citizens of each State [are] entitled to all Privileges
and Immunities of Citizens in the several States.” U.S.
Const. Art. IV § 2, cl. 1. The purpose of this Clause
was “intended to ‘fuse into one Nation a collective of

App. 80
independent, sovereign States.’ ” Supreme Court of
N.H. v. Piper, 470 U.S. 274, 279 (1985) (quoting Toomer
v. Witsell, 334 U.S. 385, 395 (1948)). In light of the purpose of the Clause, the United States Supreme Court
has held that the State must accord residents and nonresidents equal treatment “[o]nly with respect to those
privileges and immunities bearing on the vitality of
the Nation as a single entity.” Piper, 470 U.S. at 279
(internal quotation marks omitted); see also Minix v.
Canarecci, No. 305-CV-144-RM, 2007 WL 1662666, at
*3 (N.D. Ind. June 6, 2007). Examples of fundamental
privileges protected by Article IV’s Privilege and Immunities Clause include pursuit of a common calling
and rights to travel and migrate interstate. See United
Bldg. & Constr. Trades Council of Camden Cnty. & Vicinity v. Mayor & Council of City of Camden, 465 U.S.
208, 219 (1984); Zobel v. Williams, 457 U.S. 55, 78-79
(1982) (O’Connor, J., concurring in the judgment).
When a law deprives nonresidents of a privilege or
immunity protected by the Privilege and Immunity
Clause, the law is invalid unless (1) there is a substantial reason for the difference in treatment; and (2) the
discrimination against nonresidents bears a substantial relationship to the State’s objectives. Barnard v.
Thorstenn, 489 U.S. 546, 552 (1989). Even if the right to
bear arms constitutes a privilege under the Privilege
and Immunities Clause, the standard—requiring a
substantial relationship to the State’s objectives—is
equal to or less than the standard that applies in the
Second Amendment context in this case. Therefore,
Plaintiffs have not shown a violation of the Privilege
and Immunities Clause.

App. 81
Finally, Plaintiffs are not entitled to relief on their
Fourteenth Amendment procedural due process claim.
When analyzing a procedural due process claim, the
Court asks (1) whether there exists a liberty or property interest of which the person has been deprived,
and (2) whether the procedures followed were constitutionally sufficient. Swarthout v. Cooke, 562 U.S. 216,
219 (2011); Ky. Dep’t of Corr. v. Thompson, 490 U.S. 454,
460 (1989). Plaintiffs assert a liberty or property interest arising out of the Second Amendment. However, because this Court has found no Second Amendment
violation, Plaintiffs have not demonstrated that they
were deprived of a property or liberty interest.
V.

CONCLUSION

For the reasons stated, Defendants’ Motion for
Summary Judgment (d/e 43) is GRANTED and Plaintiffs’ Motion for Summary Judgment (d/e 45) is DENIED. THIS CASE IS CLOSED.
ENTER: September 15, 2017
FOR THE COURT:
s/Sue E. Myerscough
SUE E. MYERSCOUGH
UNITED STATES
DISTRICT JUDGE

App. 82
In the
United States Court of Appeals
For the Seventh Circuit
-----------------------------------------------------------------------

No. 15-3738
KEVIN W. CULP, et al.,
Plaintiffs-Appellants,
v.
LISA MADIGAN, in her official capacity as Attorney General of Illinois, et al.,
Defendants-Appellees.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Central District of Illinois.
No. 3:14-CV-03320—Sue E. Myerscough, Judge.
-----------------------------------------------------------------------

ARGUED SEPTEMBER 22, 2016—DECIDED OCTOBER 20, 2016
-----------------------------------------------------------------------

Before BAUER, POSNER, and MANION, Circuit Judges.
POSNER, Circuit Judge. Illinois’ Concealed Carry
Act, 430 ILCS 66/1 et seq., authorizes an Illinois resident to carry, on his person or next to him in a car, a
loaded or unloaded firearm as long as it is fully or partially concealed and he (or she) meets the qualifications set forth in the Act. We held in Moore v. Madigan,
702 F.3d 933 (7th Cir. 2012), that the Second Amendment entitles qualified persons to carry guns outside
the home; just a few months ago we said that “the

App. 83
constitutional right to ‘keep and bear’ arms means that
states must permit law-abiding and mentally healthy
persons to carry loaded weapons in public.” Berron v.
Illinois Concealed Carry Licensing Review Bd., 825
F.3d 843, 845 (2016). But “qualified,” “law-abiding,” and
“mentally healthy” are significant limitations on the
right of concealed carry.
The qualifications in the Act are numerous but to
decide this case we need consider only a few of them:
that the applicant for a concealed-carry license not present a clear and present danger to himself or others or
a threat to public safety and not in the last five years
have been a patient in a mental hospital, or been convicted of a misdemeanor involving the use or threat of
physical force or violence, or been in a residential or
court-ordered drug or alcohol treatment program, or
have committed two or more violations involving
driving under the influence of drugs or alcohol, or be
subject to a legal proceeding that could lead to being
disqualified to possess a gun. 430 ILCS 66/25,
65/4(a)(2)(iv).
In compliance with Moore v. Madigan, supra, Illinois has authorized residents of Illinois who meet the
criteria listed above to obtain concealed-carry licenses.
But what about a nonresident of Illinois? Can he or she
obtain a right to carry a concealed firearm in Illinois?
Yes, but only if he resides in a state or territory that
has “laws related to firearm ownership, possession,
and carrying, that are substantially similar to the requirements to obtain” an Illinois concealed-carry license, and submits a notarized statement confirming

App. 84
that he is eligible under both federal law and the laws
of his home state to own a gun and licensed by that
state to carry a gun. 430 ILCS 66/40(b), 66/40(c)(2). A
state’s gun laws are deemed “substantially similar” to
Illinois’ if the state does the following four things:
1.

“regulates who may carry firearms, concealed
or otherwise, in public;”

2.

“prohibits all who have involuntary mental
health admissions, and those with voluntary
admissions within the past 5 years, from carrying firearms, concealed or otherwise, in public;”

3.

“reports denied persons to NICS [National Instant Criminal Background Check System];”
and

4.

“participates in reporting persons authorized
to carry firearms, concealed or otherwise, in
public through NLETs [National Law Enforcement Telecommunications System].”

20 Ill. Admin. Code 1231.10. As we’ll see, these four requirements are not imposed in order to punish nonresidents because of where they live or because Illinois
disapproves of other states’ gun regimes. The sole purpose is to protect Illinois residents. The Illinois State
Police determines which states make the cut by conducting a fifty-state survey and posting the results on
its website. 20 Ill. Admin. Code 1231.110(b), (c). Currently only Hawaii, New Mexico, South Carolina, and
Virginia qualify as “substantially similar” in the relevant respects to Illinois. Illinois State Police Firearm

App. 85
Services Bureau, “Frequently Asked Questions: How
can I find out if my state’s laws are considered ‘substantially similar?,’ ” www.ispfsb.com/Public/Faq.aspx
(visited Oct. 19, 2016).
Illinois recognizes certain exceptions for citizens
of not “substantially similar” states. A person who has
a firearm license from his own state is allowed to carry
a firearm in Illinois while hunting or at a firing range
or on property whose owner permits him to carry a
gun, 430 ILCS 65/2(a), (b), and if he has a concealedcarry license from his state he can transport a firearm
in his car or other vehicle in Illinois as long as he
doesn’t remove it from the vehicle. 430 ILCS 66/40(e).
The plaintiffs in this case, nonresidents of Illinois
each of whom has a concealed-carry license from his
home state, travel to Illinois whether on business or for
family or other reasons and want, while they are in Illinois, to be allowed to carry a firearm even if they are
not within the exceptions to the restrictions on nonresident gun carrying just listed, but are not allowed to do
so because they aren’t residents of states that have
firearm laws substantially similar to Illinois’. They argue that Illinois’ refusal to issue concealed-carry licenses to them violates Article IV of, and the Second
and Fourteenth Amendments to, the Constitution. The
district judge declined to issue a preliminary injunction, precipitating this appeal.
The plaintiffs’ claim to be allowed to carry concealed firearms when they are visiting Illinois would
be compelling if the Illinois authorities could reliably

App. 86
determine whether in fact a nonresident applicant for
an Illinois concealed-carry license had all the qualifications that Illinois, or states that have concealedcarry laws substantially similar to Illinois, require be
met. But while the Illinois state police have ready access to information about Illinois residents (mainly
about whether the applicant for a concealed-carry license has a criminal history or a history of mental illness) that is necessary to determine whether an
applicant is eligible to obtain such a license, they lack
reliable access to the information they need about the
qualifications of non-resident applicants other than
residents of the four “substantially similar” states.
An uncontradicted affidavit from Jessica Trame,
the chief of the Illinois Firearms Services Bureau, lists
information sources that the Bureau relies on in determining whether an applicant for a concealed-carry license is eligible. They include records of drivers’
licenses and a computerized criminal history records
system. There is also the federal database of criminal
histories mentioned earlier (NLETS) that the police
can access, but it is incomplete because many states
submit incomplete information on their arrest and
prosecution records to the database. And while the Illinois Bureau can request information from local jurisdictions (cities, counties, etc.) in other states, those
jurisdictions charge for the information; and the Bureau claims without contradiction that it lacks the
funds required to pay the charges (Illinois state agencies are notoriously underfunded). The Bureau has
for example encountered significant difficulties in its

App. 87
efforts to obtain mental health information about residents of other states; many of those states don’t track
such information.
But it’s not just the initial application process that
has Illinois concerned. Illinois needs reliable information in order to be able to monitor the holders of gun
permits, which are good for five years. 430 ILCS 66/50,
66/35. So after issuing a concealed carry license Illinois
checks its own databases daily and national ones quarterly for updates that might require a license to be revoked. But it is unable to obtain updates from states
that don’t track or report the information. This practical need explains all four of the requirements for “substantially similar” gun laws listed above.
All this said, the plaintiffs do make some apt criticisms of the Illinois law. They point out for example
that the concealed-carry license of an Illinois resident
is not revoked or reassessed if he returns from a trip
to, or a sojourn in, another state, even though the Illinois authorities will not know what he did in that
state—whether for example he committed a crime or
had a mental breakdown. And anyone who lives in Illinois or one of the four substantially similar states is
eligible to obtain an Illinois concealed-carry license
even if he had become a resident of such a state recently, having spent many years living in dissimilar
and therefore non-approved states, with Illinois (and,
presumably, the substantially similar state as well)
unable to obtain information about his possible criminal or mental problems in those states.

App. 88
So the Illinois law regulating the concealed-carry
rights of nonresidents is imperfect. But we cannot say
that it is unreasonable, so imperfect as to justify the
issuance of a preliminary injunction. Cf. Moore v.
Madigan, supra, at 940. The critical problem presented
by the plaintiffs’ demand—for which they offer no solution—is verification. A nonresident’s application for
an Illinois concealed-carry license cannot be taken at
face value. The assertions in it must be verified. And
Illinois needs to receive reliable updates in order to
confirm that license-holders remain qualified during
the five-year term of the license. Yet its ability to verify
is extremely limited unless the nonresident lives in
one of the four states that have concealed-carry laws
similar to Illinois’ law. A trial in this case may cast the
facts in a different light, but the plaintiffs have not
made a case for a preliminary injunction.
AFFIRMED

MANION, Circuit Judge, dissenting. Just four years
ago, this court invalidated Illinois’ decades-old blanket
ban on the carrying of firearms in public. Moore v.
Madigan, 702 F.3d 933 (7th Cir. 2012). We recognized
that the Second Amendment requires states to “permit
law-abiding and mentally healthy persons to carry
loaded weapons in public.” Berron v. Ill. Concealed
Carry Licensing Review Bd., 825 F.3d 843, 845 (7th Cir.
2016). It was only in response to our decision in Moore
that Illinois finally became the last state in the nation
to enact a concealed-carry law.

App. 89
Although Illinois now reluctantly allows its residents to carry concealed weapons with a license, it still
significantly restricts the rights of nonresidents to do
so. State law prevents the residents of 45 states from
even applying for an Illinois concealed-carry license
because the Department of State Police has not classified their states’ public-carry qualifications as “substantially similar” to those Illinois imposes. These
nonresidents, including the plaintiffs in this case, have
no opportunity to prove that they meet Illinois’ requirements. Based solely on their states of residence,
they are deprived of any opportunity to exercise their
Second Amendment rights in Illinois.
When a state law infringes on the fundamental
Second Amendment right to keep and bear arms for
self-defense, it must satisfy heightened scrutiny. Our
precedents instruct that to sustain such a law, a state
must present “an extremely strong public-interest justification and a close fit between the government’s
means and its end.” Ezell v. City of Chicago, 651 F.3d
684, 708 (7th Cir. 2011). Illinois has not done so here.
As explained below, the state’s chosen method to regulate non-resident concealed-carry license applications
is not sufficiently tailored to its goal of properly vetting
out-of-state applicants’ criminal and mental histories.
Therefore, the ban violates the Second Amendment.
Nevertheless, the court holds that the plaintiffs
are not entitled to preliminary relief because the application ban is not “unreasonable.” The court’s application of rational-basis review to the nonresident
application ban is directly contrary to Supreme Court

App. 90
and Seventh Circuit precedent. Under the proper
standard of review, the plaintiffs are certain to succeed
on the merits of their Second Amendment claim.1 I
would reverse the district court’s judgment and remand with instructions to issue a preliminary injunction. I respectfully dissent.
I.

Background

Illinois law requires the Department of State Police to issue a concealed-carry license to each Illinois
resident who applies and meets certain qualifications.
430 ILCS 66/25. The Department must also issue a license to some nonresidents who meet all of these qualifications other than Illinois residency. 430 ILCS
66/40(b). Under the statute, the Department may only
process applications from residents of states “with
laws related to firearm ownership, possession, and carrying, that are substantially similar to the requirements to obtain a license under [Illinois law].” Id. The
definition of “substantially similar” is left to the Department’s discretion.
Department regulations define “substantially similar” states as those that do all of the following: (1) regulate who may carry firearms in public; (2) prohibit all
1

The parties indicated at oral argument that the record before us now is the same one that is before the district court for the
pending summary judgment motion. Therefore, there is no need
to hedge on the plaintiffs’ likelihood of success at this stage. The
result will not change should this case return on appeal from the
grant of the state’s motion for summary judgment. That is why I
would hold that the plaintiffs are certain to succeed on the merits.

App. 91
who have had involuntary mental health admissions,
and those who have had voluntary admissions in the
past five years, from carrying firearms; (3) report denied persons to the National Instant Criminal Background Check System; and (4) participate in reporting
those authorized to carry through the National Law
Enforcement Telecommunications System. Ill. Admin.
Code 1231.10. The Department periodically sends a
survey to each state to determine whether it meets
these criteria. At present, the Department has identified only Hawaii, New Mexico, Virginia, and South
Carolina as “substantially similar” states.2 The law
therefore operates as a total ban on concealed-carry
license applications from residents of the other 45
states.
The individual plaintiffs are law-abiding nonresidents who hold concealed-carry licenses in their resident states. Some are even certified Illinois concealedcarry instructors. They wish to apply to carry firearms
in Illinois. The plaintiffs contend that the ban on applications from their states violates the Second
Amendment, the Equal Protection Clause, the Due
Process Clause, and the Privileges and Immunities
Clause of Article IV. The district court denied their

2

The Department sent the surveys that identified the four
currently approved states in 2013. At that time, seven states did
not respond at all to Illinois’ survey. Illinois indicated at oral argument that it recently sent another survey and that the Department is currently analyzing the results. The list of approved
states is subject to change based upon the results of this most recent survey.

App. 92
motion for a preliminary injunction, and the plaintiffs
timely appealed.
II.

Discussion

A. Preliminary Injunction Standard
To determine whether the plaintiffs are entitled
to preliminary relief, this court applies a two-part
“sliding scale” test. As a threshold matter, the movants
must establish (1) some probability of success on the
merits; (2) lack of an adequate remedy at law; and (3)
irreparable harm in the absence of an injunction.
Stuller, Inc. v. Steak N Shake Enters., Inc., 695 F.3d 676,
678 (7th Cir. 2012). If they clear that hurdle, the district court then must balance the harms that both parties would suffer in the event of an adverse decision. In
this analysis, it must consider the public interest in
granting or denying an injunction and weigh the
threshold factors against each other, depending on how
strongly each factor points in favor of each party. See
id. We generally review the district court’s legal analysis de novo and its balancing of the factors for abuse
of discretion. Id. However, “a decision to deny a preliminary injunction that is premised on an error of law is
entitled to no deference and must be reversed.” United
Air Lines, Inc. v. Int’l Ass’n of Machinist & Aerospace
Workers, AFL-CIO, 243 F.3d 349, 361 (7th Cir. 2001).
B. Likelihood of Success on the Merits
At this stage, the principal issue is whether the
plaintiffs are likely to succeed on the merits of their

App. 93
Second Amendment claim.3 The “sliding-scale” nature
of the preliminary injunction inquiry means that the
plaintiffs’ precise chances of success are highly relevant to whether an injunction should issue. A movant
with just a slight chance of success must make a much
greater showing of harm than one who is certain to
prevail. See Storck USA, L.P. v. Farley Candy Co., 14
F.3d 311, 314 (7th Cir. 1994).
As with any constitutional case, the strength of
the plaintiffs’ Second Amendment claim depends upon
two things: (1) which standard of means-ends scrutiny
applies to the claim; and (2) whether the evidence is
sufficient to sustain the challenged law under the chosen scrutiny. I will address these in turn.
1. Proper Standard of Review
The Supreme Court has recognized that “the Second Amendment secures a pre-existing natural right
to keep and bear arms.” Ezell, 651 F.3d at 700 (citing
District of Columbia v. Heller, 554 U.S. 570, 595, 599–
600 (2008)). “[I]ndividual self-defense is ‘the central
component’ of the Second Amendment right,” which is
fundamental and therefore enforceable against the
states. McDonald v. City of Chicago, 561 U.S. 742, 767–
68 (2010) (quoting Heller, 554 U.S. at 599). We have
held that the right to bear arms for self-defense “is as
important outside the home as inside.” Moore, 702 F.3d
3

Because I conclude that the plaintiffs’ Second Amendment
claim is certain to succeed on the merits, I do not address their
remaining constitutional challenges to the Illinois statute.

App. 94
at 942. Illinois recognizes that holding and correctly
concedes that the nonresident application ban implicates the Second Amendment. The dispute centers on
the proper standard of review.
In Heller, the Supreme Court did not resolve this
question for all future Second Amendment claims.
However, it made it abundantly clear that rationalbasis review is inappropriate where a law affects Second Amendment rights. Heller, 554 U.S. at 628–29 &
n.27 (“If all that was required to overcome the right
to keep and bear arms was a rational basis, the Second Amendment would be redundant with the separate constitutional prohibitions on irrational laws,
and would have no effect.”). Because of Heller and
McDonald, this court is by default “left to choose an
appropriate standard of review from among the
heightened standards of scrutiny the [Supreme] Court
applies to governmental actions alleged to infringe
enumerated constitutional rights.” Ezell, 651 F.3d at
703.
Our precedents instruct that this critical choice
should depend on two factors: “how close the law comes
to the core of the Second Amendment right and the
severity of the law’s burden on that right.” Id. Since
Heller rules out rational-basis review, we must apply
either intermediate scrutiny, strict scrutiny, or another form of heightened scrutiny in between those
standards. Intermediate scrutiny generally requires
the government to show that the challenged law is
“substantially related to an important government objective” United States v. Skoien, 614 F.3d 638, 641 (7th

App. 95
Cir. 2010) (en banc), while under strict scrutiny the
government must prove that the law is “necessary to
serve a compelling state interest” and “narrowly tailored to achieve that interest.” Milwaukee Deputy Sheriffs’ Ass’n v. Clarke, 588 F.3d 523, 530 (7th Cir. 2009).
Three recent Second Amendment cases are particularly relevant to the standard of review question.
First, in Skoien, we considered the constitutionality of
the federal ban on the possession of firearms by those
convicted of misdemeanor domestic violence. There, rather than enter “deeply into the ‘levels of scrutiny’
quagmire,” the en banc court simply accepted the government’s concession that intermediate scrutiny applied to the ban. Id. at 641–42. It held that “logic and
data establish a substantial relationship” between the
statute and the goal of “preventing armed mayhem.”
Id. at 642.
In Ezell, the plaintiffs sought a preliminary injunction against Chicago’s ban on firing ranges. We
described the firing-range ban as “a serious encroachment on the right to maintain proficiency in firearm
use, an important corollary to the meaningful exercise
of the core right to possess firearms for self-defense.”
Ezell, 651 F.3d at 708. Critically, unlike the criminal
defendant in Skoien, the Ezell plaintiffs were “the ‘lawabiding, responsible citizens’ whose Second Amendment rights are entitled to full solicitude under Heller.”
Id. Because Chicago’s law reached close to the core of
the Second Amendment and curtailed the rights of
law-abiding citizens, we required “a more rigorous
showing than that applied in Skoien . . . if not quite

App. 96
‘strict scrutiny.’ ” Id. Under this standard, the city had
to demonstrate “a strong public interest justification
for its ban” and “a close fit between the range ban and
the actual public interest it serves.” Id. at 708–09. Chicago failed to carry that burden, significantly because
it could not show that its public safety interest could
not be “addressed through sensible zoning and other
appropriately tailored regulations.” Id. at 709.
Finally, we have Moore. In that case, we applied
Ezell-like scrutiny to invalidate Illinois’ blanket ban
on the public carrying of firearms. Moore, 702 F.3d at
940 (categorizing the level of scrutiny as “a stronger
showing” than required in Skoien). We explained
that, because the ban on concealed-carry curtailed “the
gun rights of the entire law-abiding population of Illinois,” as opposed to a small group of people convicted
of domestic violence, intermediate scrutiny was insufficient. Id. As we put it then, “so substantial a curtailment of the right of armed self-defense requires a
greater showing of justification than merely that the
public might benefit on balance from such a curtailment, though there is no proof it would.” Id. Like Chicago’s firing range ban, Illinois’ total prohibition on
concealed-carry could not withstand such scrutiny. See
id. at 939 (“If the mere possibility that allowing guns
to be carried in public would increase the crime or
death rates sufficed to justify a ban, Heller would have
been decided the other way, for that possibility was as
great in the District of Columbia as it is in Illinois.”).
These cases establish the basic principles that
govern the present dispute. Whenever a law infringes

App. 97
on the right to bear arms for self-defense, that law
must be at least substantially related to an important
government interest. And a law that curtails the fundamental right of law-abiding citizens to carry a
weapon for self-defense must pass even more exacting
(although not quite strict) scrutiny. Defenders of such
a law must show a “close fit” between the law and a
strong public interest. Ezell, 651 F.3d at 708–09. That
“close fit” is functionally equivalent to the “narrow
tailoring” requirement for content-neutral speech restrictions to which strict scrutiny is inapplicable. See,
e.g., McCullen v. Coakley, 134 S. Ct. 2518, 2534 (2014);
see also Ezell, 651 F.3d at 706–08 (discussing the adaptation of First Amendment precedent to Second
Amendment cases). As in First Amendment cases,
the tailoring requirement prevents government from
striking the wrong balance between efficiency and the
exercise of an enumerated constitutional right. McCullen, 134 S. Ct. at 2534.
Just as in Ezell and Moore, the plaintiffs in this
case are precisely the type of law-abiding citizens
“whose Second Amendment rights are entitled to full
solicitude under Heller.” Ezell, 651 F.3d at 708. What is
more, the nonresident application ban functions as a
categorical prohibition of applications from the majority of Americans. It is therefore a severe burden on the
recognized Second Amendment right. Indeed, Illinois’
application ban has the potential to affect even more
people than did the sweeping restrictions we invalidated in Moore and Ezell. Therefore, it must satisfy the
same exacting scrutiny that we applied in those cases.

App. 98
In sum, “a ban as broad as Illinois’ can’t be upheld
merely on the ground that it’s not irrational.” Moore,
702 F.3d at 939. The court’s cursory application of rational-basis review is directly contrary to Supreme
Court and Seventh Circuit precedent. As a result, the
court adds confusion to our case law and allows the
states impermissible latitude to violate the Second
Amendment rights of law-abiding Americans.
2. Application of Ezell Scrutiny
Having established the appropriate standard of
review, I now turn to its application in this case. Illinois
submits that the prohibition of so many nonresident
applications is necessary because the state can
properly vet only applicants from Illinois and the four
Department-approved states. Illinois says that it cannot afford to pay to access information, such as applicants’ criminal records, from jurisdictions that do not
report to the national databases Illinois uses to look up
those records. Moreover, some states do not track mental health information at all. According to Illinois, it
cannot obtain mental health records for potential applicants from many states and thus cannot evaluate
whether applicants from these states are qualified under Illinois law to carry a firearm.
The plaintiffs do not challenge Illinois’ power to
maintain a licensing scheme with some conditions on
the right to carry a firearm in public. See Berron, 825
F.3d at 847. Nor do they challenge the conditions themselves. On the contrary, they want the opportunity to

App. 99
comply with those conditions. They seek the opportunity to be treated the same way Illinois treats its
own residents and those of the four Department-approved states. The current statutory scheme deprives
them of that opportunity.
Since the court erroneously subjects the application ban only to rationality review, it fails to answer
the dispositive question. Namely, is the ban is sufficiently tailored to Illinois’ interest in vetting applicants to pass Ezell scrutiny? I would hold that it is not.
The court seemingly admits that the law is significantly underinclusive (because it regulates too few
people to be effective in addressing the stated goal) and
overinclusive (because it regulates too many people
that do not fall under its public interest justification).
These features, which the court concedes make the law
“imperfect,” suffice to demonstrate that the required
close fit between means and ends is lacking. Cf. Ark.
Writers’ Project, Inc. v. Ragland, 481 U.S. 221, 232
(1987) (holding that regulations fail narrow-tailoring
analysis when they are both overinclusive and underinclusive).
The nonresident application ban is significantly
underinclusive in two principal ways. First, as the
court correctly notes, “the concealed-carry license of an
Illinois resident is not revoked or reassessed if he returns from a trip to . . . another state, even though
the Illinois authorities will not know what he did in
that state—whether for example he committed a crime
or had a mental breakdown.” Maj. Op. at 6. Second, a
potential applicant who moves to one of the four

App. 100
approved states becomes immediately eligible to apply
for an Illinois concealed-carry license. This is true
“even if he had become a resident of such a state recently, having spent many years living in dissimilar
and therefore non-approved states, with Illinois (and,
presumably, the substantially similar state as well)
unable to obtain information about his possible criminal or mental problems in those states.” Id. As broad
as the application ban is, it does not allow Illinois to
vet potential license-holders or future applicants in
two quite plausible situations. This severely undercuts
Illinois’ justification for maintaining it.4 See City of
Cincinnati v. Discovery Network, Inc., 507 U.S. 410,
417–18 (1993) (ban on news racks containing “commercial handbills” lacked the required “reasonable fit” between the government’s asserted end and the means
chosen because it was woefully underinclusive).
The ban is also overinclusive. While a categorical
application ban no doubt prevents many disqualified
people from obtaining an Illinois concealed-carry license,5 it also prohibits many who would meet Illinois’
4

Moreover, Illinois law already permits non-residents who
hold firearm licenses from their resident states to possess a gun
in various other ways in Illinois. See Maj. Op. at 3–4. The fact
that Illinois trusts nonresidents to bring guns into the state to use
on firing ranges or simply to carry in a vehicle undermines its
policy rationale for restricting these same people from applying to
carry a concealed weapon.
5
While I do not doubt the statute’s effectiveness at preventing these people from obtaining a license, whether it actually prevents gun violence is another matter altogether. In Moore, we
properly recognized that “[t]he available data about permit holders . . . imply that they are at fairly low risk of misusing guns,

App. 101
qualifications from applying for a license. The plaintiffs in this case are exemplary. All are responsible
gun owners with significant firearm training, no criminal or mental histories, and valid concealed-carry licenses from other states. Plaintiffs Kevin Culp,
Douglas Zylstra, and Paul Heslin are Illinois-certified
concealed-carry instructors who hold carry licenses
in multiple states. A law that prevents an Illinoislicensed concealed-carry instructor from even applying
for a license to carry in that state sweeps up far too
many people to be appropriately tailored under any exacting standard of scrutiny.
Once more, it is important to emphasize that the
plaintiffs seek only the right to apply for a concealedcarry license. Should they prevail, they would gain
only the ability to seek a license on the same basis as
residents of Illinois and the four Department-approved
states. While such a process may impose an additional
burden, Illinois has not shown that it would be impossible, or even impractical, for these out-of-state applicants to provide verified records that satisfy Illinois’
requirements. For instance, nonresidents could attempt to shoulder the burden of paying for criminal
consistent with the relatively low arrest rates observed to date for
permit holders.” Moore, 702 F.3d at 937–38 (quoting Philip J.
Cook, et al., Gun Control After Heller: Threats and Sideshows
from a Social Welfare Perspective, 56 UCLA L. Rev. 1041, 1082
(2009)). There is no indication that this is any less true for concealed-carry license holders in one state who wish to apply for a
license in another state. To put it plainly, it is unlikely that someone wanting to commit a gun crime in Illinois will first avail himself of the licensing process for out-of-state residents.

App. 102
record searches in their resident state and providing
the relevant records to Illinois. Prospective applicants
could also seek certification that they satisfy Illinois’
mental health requirement. In many cases, such certification would provide Illinois with more information
than it can obtain about its own residents’ out-of-state
sojourns, which they admittedly cannot track.6 Potential applicants should at least be given that chance.
In sum, the absolute denial of nonresidents’ right
to apply for an Illinois concealed-carry license lacks
the required close fit to the state’s asserted interest in
properly vetting applicants. It is woefully overinclusive
and underinclusive relative to that aim. Therefore, 430
ILCS 66/40(b) violates the plaintiffs’ Second Amendment rights. I would hold that the plaintiffs are certain
to succeed on the merits.
C. Remaining Preliminary Injunction Factors
Because I would hold that the plaintiffs are certain
to succeed, I must proceed to the remaining preliminary injunction factors. In addition to demonstrating
some probability of success on the merits, the plaintiffs
6

For example, there is no reason that Illinois cannot require
nonresident applicants to submit their health records as proof
that they have not been treated for a mental illness. The state
could also require an affidavit from a treating physician certifying
an applicant’s lack of mental admissions. This information would
be far more valuable to Illinois than the simple fact that an applicant has a Hawaii concealed-carry license. After all, there is no
guarantee that Hawaii was aware of its applicants’ mental health
admissions in other states before granting licenses.

App. 103
must establish that they would be “irreparably harmed
if [they do] not receive preliminary relief, and that
money damages and/or an injunction ordered at final
judgment would not rectify that harm.” Abbott Labs. v.
Mead Johnson & Co., 971 F.2d 6, 16 (7th Cir. 1992). The
district court properly found that the plaintiffs satisfy
all of the threshold requirements here. See Ezell, 651
F.3d at 697–99 (holding that irreparable harm is presumed in Second Amendment cases and that damages
could not compensate for a violation). I need not belabor these points.
More critical is the district court’s balancing of the
harms. Although the district court correctly concluded
that the plaintiffs met all the threshold requirements
for an injunction, it still denied their motion based on
its conclusion that issuance of an injunction would
harm the state more than a failure to issue one would
harm the plaintiffs. The district court reasoned that
the state would be harmed by its inability to conduct
background checks on newly eligible applicants, while
the plaintiffs could carry guns into Illinois for various
other purposes and retained the right to concealedcarry in their resident states even in the absence of an
injunction.
Because it was premised on an error of law, the
district court’s balancing of the factors is due no deference. United Air Lines, 243 F.3d at 361. Since the
district court erred by applying only intermediate
scrutiny to the plaintiffs’ Second Amendment claim, it
erroneously concluded that the plaintiffs’ claim was
“neither strong nor weak.” Had it applied the proper

App. 104
standard of review and held that the plaintiffs are certain to succeed, the district court would have required
a much weaker showing of harm before it issued the
injunction. Storck USA, 14 F.3d at 314 (“[T]he greater
the movant’s chance of success on the merits, the less
strong a showing must it make that the balance of
harms is in its favor.”).
Given the plaintiffs’ certainty of success, I would
hold that the balance of harms tips in their favor.
Simply permitting law-abiding citizens who have concealed-carry licenses in other states to apply for an Illinois license will not irreparably harm the state.
Illinois may still deny those who do not meet its stringent criteria, so an injunction will not result in a flood
of new concealed-carry license-holders. Meanwhile, the
plaintiffs suffer irreparable harm each day they cannot
avail themselves of Illinois’ concealed-carry licensing
scheme. See Ezell, 651 F.3d at 699 (“If they’re right [on
the merits], then the range ban was unconstitutional
when enacted and violates their Second Amendment
rights every day it remains on the books.”). The fact
that they can still possess firearms in other limited
ways in Illinois and exercise the right to carry a firearm in their home states is irrelevant. Id. at 697-98.
The application ban prevents them from taking the
first step towards exercising their fundamental constitutional rights in Illinois.

App. 105
III.

Conclusion

Today’s decision will have a profound and unfortunate impact on the scope of Second Amendment rights
in our circuit. The court’s decision has unnecessarily
muddied the waters and cast significant doubt upon
our holdings in Ezell and Moore. Rather than create
confusion, we should reaffirm that state laws affecting
the fundamental right to carry a firearm for selfdefense are subject to exacting scrutiny. Under this
standard, the plaintiffs are entitled to a preliminary
injunction. I respectfully dissent.

App. 106
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
May 13, 2019
Before
DANIEL A. MANION, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
No. 17‐2998
KEVIN W. CULP, et al.,
Plaintiffs‐
Appellants,
v.

Appeal from the United
States District Court
for the Central District
of Illinois
No. 3:14‐cv‐3320

KWAME RAOUL, in
his official capacity as
Attorney General of the
State of Illinois, et al.,

Sue E. Myerscough,
Judge.

Defendants‐
Appellees.
ORDER
Plaintiffs‐appellants filed a petition for rehearing
and rehearing en banc on April 26, 2019. No judge in
regular active service has requested a vote on the petition for rehearing en banc, and all members of the original panel have voted to deny panel rehearing. The
petition for rehearing and rehearing en banc is therefore DENIED.

